<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2013</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



                      ENERGY AND WATER DEVELOPMENT

                        APPROPRIATIONS FOR 2013

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS
                             SECOND SESSION
                                ________
              SUBCOMMITTEE ON ENERGY AND WATER DEVELOPMENT
              RODNEY P. FRELINGHUYSEN, New Jersey, Chairman

 JERRY LEWIS, California            PETER J. VISCLOSKY, Indiana
 MICHAEL K. SIMPSON, Idaho          ED PASTOR, Arizona
 DENNY REHBERG, Montana             CHAKA FATTAH, Pennsylvania
 RODNEY ALEXANDER, Louisiana        JOHN W. OLVER, Massachusetts
 STEVE WOMACK, Arkansas             
 ALAN NUNNELEE, Mississippi         

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mr. Dicks, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
                Rob Blair, Joseph Levin, Angie Giancarlo,
                  Loraine Heckenberg, and Perry Yates,
                            Staff Assistants

                                ________

                                 PART 7
                          DEPARTMENT OF ENERGY
                                                                   Page
 Department of Energy.............................................
  Department of Energy--Nuclear Energy and Nuclear Regulatory 
Commission, FY 2013 Budget........................................

                                ________

         Printed for the use of the Committee on Appropriations





                      ENERGY AND WATER DEVELOPMENT

                        APPROPRIATIONS FOR 2013

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS
                             SECOND SESSION
                                ________
              SUBCOMMITTEE ON ENERGY AND WATER DEVELOPMENT
              RODNEY P. FRELINGHUYSEN, New Jersey, Chairman

 JERRY LEWIS, California            PETER J. VISCLOSKY, Indiana
 MICHAEL K. SIMPSON, Idaho          ED PASTOR, Arizona
 DENNY REHBERG, Montana             CHAKA FATTAH, Pennsylvania
 RODNEY ALEXANDER, Louisiana        JOHN W. OLVER, Massachusetts
 STEVE WOMACK, Arkansas             
 ALAN NUNNELEE, Mississippi         
                                    
                                    
                                    

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mr. Dicks, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
                Rob Blair, Joseph Levin, Angie Giancarlo,
                  Loraine Heckenberg, and Perry Yates,
                            Staff Assistants

                                ________

                                 PART 7

                          DEPARTMENT OF ENERGY
                                                                   Page
 Department of Energy.............................................
  Department of Energy--Nuclear Energy and Nuclear Regulatory 
Commission, FY 2013 Budget........................................

                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE

 80-406                     WASHINGTON : 2013








                                  COMMITTEE ON APPROPRIATIONS

                    HAROLD ROGERS, Kentucky, Chairman

 C. W. BILL YOUNG, Florida \1\          NORMAN D. DICKS, Washington
 JERRY LEWIS, California \1\            MARCY KAPTUR, Ohio
 FRANK R. WOLF, Virginia                PETER J. VISCLOSKY, Indiana
 JACK KINGSTON, Georgia                 NITA M. LOWEY, New York
 RODNEY P. FRELINGHUYSEN, New Jersey    JOSE E. SERRANO, New York
 TOM LATHAM, Iowa                       ROSA L. DeLAURO, Connecticut
 ROBERT B. ADERHOLT, Alabama            JAMES P. MORAN, Virginia
 JO ANN EMERSON, Missouri               JOHN W. OLVER, Massachusetts
 KAY GRANGER, Texas                     ED PASTOR, Arizona
 MICHAEL K. SIMPSON, Idaho              DAVID E. PRICE, North Carolina
 JOHN ABNEY CULBERSON, Texas            MAURICE D. HINCHEY, New York
 ANDER CRENSHAW, Florida                LUCILLE ROYBAL-ALLARD, California
 DENNY REHBERG, Montana                 SAM FARR, California
 JOHN R. CARTER, Texas                  JESSE L. JACKSON, Jr., Illinois
 RODNEY ALEXANDER, Louisiana            CHAKA FATTAH, Pennsylvania
 KEN CALVERT, California                STEVEN R. ROTHMAN, New Jersey
 JO BONNER, Alabama                     SANFORD D. BISHOP, Jr., Georgia
 STEVEN C. LaTOURETTE, Ohio             BARBARA LEE, California
 TOM COLE, Oklahoma                     ADAM B. SCHIFF, California
 JEFF FLAKE, Arizona                    MICHAEL M. HONDA, California
 MARIO DIAZ-BALART, Florida             BETTY McCOLLUM, Minnesota
 CHARLES W. DENT, Pennsylvania          
 STEVE AUSTRIA, Ohio                    
 CYNTHIA M. LUMMIS, Wyoming             
 TOM GRAVES, Georgia                    
 KEVIN YODER, Kansas                    
 STEVE WOMACK, Arkansas                 
 ALAN NUNNELEE, Mississippi             
   
 ----------
 /1/ Chairman Emeritus    

               William B. Inglee, Clerk and Staff Director

                                  (ii)

 
          ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2013

                              ----------                              

                                        Tuesday, February 28, 2012.

                       U.S. DEPARTMENT OF ENERGY

                                WITNESS

STEVEN CHU, SECRETARY, U.S. DEPARTMENT OF ENERGY
    Mr. Frelinghuysen. Good afternoon, everybody. I would like 
to call this hearing to order.
    Secretary Chu, I would like to welcome you back once again 
to the subcommittee. I understand through the grapevine that 
today is your birthday. Is that correct?
    Secretary Chu. That is correct.
    Mr. Frelinghuysen. And that it is also your wedding 
anniversary.
    Secretary Chu. That is correct.
    Mr. Rogers. What is he doing here?
    Secretary Chu. That is a good question.
    Mr. Frelinghuysen. We appreciate your being here, of 
course.
    And you are here today to present the administration's 
fiscal year 2013 budget request for your department. Your 
request totals $27.2 billion--a $1.5 billion, or 5.7 percent, 
increase from the fiscal-year-2012-enacted level. Nearly one-
third of that increase comes in one program: Energy Efficiency 
and Renewable Energy.
    Your request is painfully thin on its specifics, and we 
need to know why this funding is both necessary and a prudent 
use of taxpayer dollars. And given that consumers are angered 
by higher gas and oil prices and one major energy source, 
fossil energy, is substantially cut from last year, how does 
your budget relate to the real world outside of Washington, 
where energy costs are eating up family budgets?
    On top of that, the public's faith has been shaken by 
revelations that many programs under your jurisdiction have 
wasted taxpayers' dollars and created markets for various 
renewables that cannot be sustained without further infusions 
of Federal support. Artificial markets plus the reality of 
wasted dollars undermine the real economy which exists outside 
this city.
    We know all too well the problems the loan guarantee 
program has faced so far. Solyndra has become its public face. 
We don't know what will be the next shoe to fall, but we have 
great reason to be concerned. Back home, many people are, 
frankly, disgusted that some of these investments have been 
wasted. They now seriously question the proper government role 
in energy markets and the levels of risk that you and those 
subordinate to you have taken over the past 2 years.
    The Allison report on the loan guarantee program noted that 
the failure rate of the program to date has been less than some 
had projected. While I respect the expertise and judgment of 
Mr. Allison and the need to do political damage control, all 
loan guarantee opportunities, for whatever purpose, will now be 
painted with the same brush. The loss of public confidence is 
difficult to calculate. Are there lessons you have learned from 
this?
    Energy projects fail in the marketplace; we know that. But 
if political directives were behind any project selection, then 
our fears would be justified. You may have seen a report by The 
Washington Post on February 14th which alleged that as much as 
$3.9 billion of your funds may have been improperly influenced 
by appointees. Now the White House must show that the election 
year is not dictating this budget's spending plans.
    I put Yucca Mountain in the same box. The administration 
has tried to kill this project, wasting billions of dollars to 
accommodate Senator Reid--mind you, not on any sound scientific 
grounds, which you yourself have said, Mr. Secretary. Now your 
budget request contains funding for projects to implement some 
of the Blue-Ribbon Commission's recommendations--
recommendations which Congress has not blessed either in whole 
or in part. As the current law of the land is for waste 
disposal at Yucca Mountain, we need to hear from you if the 
administration is proposing any legislative changes to 
authorize their recommendations.
    On a more positive note, you have made some tough decisions 
to support the nuclear security programs at the NNSA--decisions 
which this country has been demanding for some time. Nuclear 
security programs are the most vital mission within your 
portfolio.
    While I have significant concerns about the 
administration's call for reduced military spending, we showed 
last year that our national security can be sustained and even 
improved with less money. And it will be the administration's 
task to show that your fiscal year 2013 request does not 
sacrifice our strategic security for budgetary savings.
    And together, the administration and Congress have 
supported the development of small modular reactors, another 
positive development, as was the recent groundbreaking for two 
nuclear reactors in Georgia.
    Mr. Secretary, last year we wrestled with how to put 
together a budget for your department that was fair and 
balanced. I am proud of our product. And I want to thank my 
ranking member, Mr. Visclosky, once again, as a former chairman 
and ranking member for his many contributions, his sound 
advice, experience, and that very essential institutional 
memory.
    Our joint task this budget cycle is no different: funding 
the right balance of investments for our most critical needs 
with an eye toward those that protect our Nation; and, yes, 
create private-sector jobs, sustainable jobs and opportunities, 
not jobs which rely on government largesse. I hope you will be 
able to explain today how the budget request before us does 
just that.
    Secretary Chu, please ensure that the hearing record, 
questions for the record, and any supporting information 
requested by the subcommittee are delivered in final form to us 
no later than 4 weeks from the time you receive them.
    Members who have additional questions for the record will 
have until the close of business tomorrow to provide them to 
the subcommittee office.
    With that, I turn to my ranking member, Mr. Visclosky, for 
any comments he may wish to give.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Visclosky. Mr. Chairman, thank you very much. And I 
know my entire statement will be entered into the record.
    First of all, I would thank you for your kind words and 
reciprocate. I told a group this morning that I am blessed in 
life, obviously, for many, many reasons, but one of them is to 
serve on this subcommittee, because all of us together want a 
strong Nation, a good sound energy policy, as well as the 
economic development that can follow from an investment in our 
water infrastructure. And you have done a great job in bringing 
us together and, again, resolving differences and making sound 
judgments. So I appreciate that very much.
    Dr. Chu, I also congratulate you on your wedding 
anniversary and birthday. Had this not been a leap year, you 
would be just 1 day before my son's birthday. So I congratulate 
you for that and do welcome you to the subcommittee for your 
fourth appearance.
    I am pleased that President Obama continues to recognize 
the energy challenges facing this Nation. And I appreciate the 
budget's strong statement that America will not cede leadership 
in clean energy.
    Additionally, I certainly believe that we need to be more 
conscientious about our energy consumption and further advance 
our conservation efforts. We need a strong yet balanced 
approach to energy research and development that effectively 
nurtures basic sciences, leading to significant technological 
demonstration, deployment, and commercialization--these efforts 
with a goal in mind toward ensuring production in America of 
these findings.
    I cannot emphasize my last point strongly enough. I see 
very little or no merit to the Department fostering 
technological advances or breakthroughs for products that will 
not ultimately be manufactured domestically.
    The government can drive the policies. However, I am, as I 
have said before, very concerned about making sure that the 
Department exercises strong leadership and fundamental 
management reform. They do need to be forthcoming at the 
Department of Energy. If not, it will significantly inhibit the 
chance of a successful energy policy.
    I know contract and project management seem tedious and 
dull. I certainly am tired of bringing it up year after year, 
administration after administration, and actually believe you 
are now the seventh Secretary of Energy I have questioned on 
the topic. I continue to be appalled at the cost overruns and 
schedule slips of the Department of Energy's major construction 
projects.
    In 2009, this subcommittee had a hearing on the 
Department's continued appearance on GAO's high-risk list, a 
position it has held since 1990. Given the challenges in the 
last year on major construction projects, I fear that not much 
has changed. And I do hope you can provide assurances today 
that you are taking significant, strong actions to get the 
Department off the list.
    The chairman has noticed some areas of concern, 
particularly the Department's decision and actions on Yucca 
Mountain. I speak for myself when I indicate that I share his 
concerns in that regard.
    I would also add my very serious reservations about the 
inclusion of a $150 million request for USEC within the 
nonproliferation budget request. I hope to hear from you and 
others in the Department about why, when coupled with the 
transfer authority request for fiscal year 2012, the Department 
believes providing USEC with $300 million in taxpayers' money 
is a good investment and not a bailout.
    Mr. Secretary, I do look forward to hearing from you today 
about the fiscal year 2013 budget request that will help 
address energy and national security challenges. None of us 
will always agree, but certainly, as a member of this 
subcommittee of long standing, know that we can work through 
our differences in a cooperative and bipartisan fashion.
    And, again, Mr. Chairman, I appreciate your yielding the 
time.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Frelinghuysen. Thank you very much, Mr. Visclosky.
    The chairman of the full committee is recognized, Mr. 
Rogers.
    Mr. Rogers. Thank you, Mr. Chairman. And thank you and your 
ranking member for doing great work over here. You are doing 
well.
    Mr. Secretary, happy birthday, happy anniversary. Welcome.
    This week, the national average price for a gallon of gas 
is $3.60, a jump of 20 cents over last month, 40 cents more 
than this time last year. In the increasingly unstable Middle 
East a belligerent Iran threatens to withhold its exports and 
shut down the Strait of Hormuz. Meanwhile, China's rapidly 
growing economy is driving up oil prices through increased 
demand, while its state-owned enterprises are securing 
commodity contracts around the world, monopolizing new foreign 
sources. Once again, energy security, key to economic 
prosperity and national defense, is the focus of public debate.
    The Congress has sent a very strong message: that we must 
have balance in the expansion of conventional fuels--coal, 
natural gas, oil, nuclear--to provide energy today, with 
investment into renewable energies to power our future. And 
while the President has repeatedly mentioned his support for a 
similar all-of-the-above energy policy, this budget proposal 
and the recent denial of the Keystone XL pipeline, seem to 
insinuate that this administration is not serious about 
responsibly diversifying our energy portfolio.
    Instead, this budget request for DOE, coupled with the 
budgets of Interior and the EPA, seems merely a continuance of 
this administration's political posturing and a diversion of 
scarce Federal dollars to favored energy sectors at the expense 
of the others. In particular, coal--so important to my region 
of southern and eastern Kentucky and our country's most 
abundant energy resource--has remained squarely in the 
administration's cross-hairs for extinction.
    Although your budget tries to hide it, your proposal 
significantly rolls back investment in carbon capture, carbon 
storage, and the advanced energy systems that would allow our 
country to more efficiently use the fossil fuels already at our 
disposal. Instead, these funds have been shuffled around to 
support the President's pet projects, including a proposed $500 
million increase for the Energy Efficiency and Renewable Energy 
Program, which is already funded at $1.8 billion.
    Furthermore, as the EPA rolls out its MACT regulations and 
fleshes out a proposed greenhouse gas rule, these fossil R&D 
funds are vital to developing the new technologies necessary to 
comply with the administration's own control standards. 
Essentially, the administration has created a ``catch-22,'' 
demanding that industry invest heavily into new technology in 
order to meet stricter standards while cutting off the funding 
for those investments. It is a systematic dismissal of coal, 
the outcome of which will be thousands of lost jobs and more 
expensive electricity for American citizens while their tax 
money is thrown at unviable solutions, like Solyndra's solar 
panels.
    Combined with underfilling the Strategic Petroleum Reserve 
after last year's sale in order to create the appearance of 
savings, I fear your budget reduces our energy security in real 
terms.
    Obviously, my colleagues and I have serious concerns about 
the administration's policies as they relate to our energy 
security. However, I would like to commend your department for 
its efforts through NNSA to maintain our strategic arsenal. I 
would welcome you to expand upon how your request, which 
includes significant reductions, ensures that our nuclear 
capabilities are secure, thoroughly modernized, and continue to 
be a sufficient deterrent to our enemies.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Dicks, the ranking member of the full committee.
    Mr. Dicks. I also want to welcome Secretary Chu to the 
Energy and Water Subcommittee for the opportunity to discuss 
the fiscal year 2013 Department of Energy budget request.
    And I will bet you could have thought of better things to 
do on your birthday and on your anniversary, but we will be 
brief.
    For fiscal year 2013, the President's budget request for 
the Energy Department is a sensible proposal that carries on 
our investments in important national programs in defense, 
science, and energy efficiency. This proposal represents a 
further investment for many programs that are the building 
blocks for a more efficient and independent energy future.
    This fiscal year 2013 budget request contains a small 
increase for naval reactors but healthier increases for other 
nuclear weapons activities, such as modernization, as well as 
the nonproliferation programs. While the increase for weapon 
activities is less than what was outlined in the budget 
document of a few years ago, the funding seems adequate for 
fiscal year 2013 to maintain our capability. However, I 
understand the administration is working on a plan to establish 
our requirements beyond this proposed budget.
    I applaud the budget request for the healthy increase in 
important domestic programs, such as energy efficiency. The 
Energy Efficiency and Renewable Energy Program would be 
increased by more than $520 million over the fiscal-year-2012-
enacted level. The initiatives funded under this program are 
important to establish and maintain our lead in both the 
manufacturing and deployment of new energy technologies as well 
as making existing technologies more efficient.
    The budget request also continues adequate support and 
adequate spending for the cleanup of the Hanford nuclear 
weapons site in Washington State, which is funded through the 
Environmental Management Program. I want to work with the 
subcommittee and Energy Department to make sure that the 
Hanford cleanup succeeds at a reasonable cost to the taxpayer.
    However, I must express my disappointment that this budget 
continues to reflect the administration's decision to shut down 
the Yucca Mountain project. It is my opinion that the decision 
Congress made back in the 1980s to use Yucca as our national 
nuclear waste repository is still the law of the land.
    Again, I want to welcome Secretary Chu to the committee, 
and we look forward to your statement.
    Thank you.
    Mr. Frelinghuysen. Thank you, Mr. Dicks.
    Mr. Secretary, thank you for being with us, and we welcome 
your remarks. Your entire statement, of course, will be 
included in the record.
    Secretary Chu. All right. Thank you.
    Chairman Frelinghuysen, Ranking Member Visclosky, and 
members of the committee, thank you for the opportunity to 
discuss the Department of Energy's fiscal year 2013 budget 
request.
    To promote economic growth and strengthen our security, 
President Obama has called for an ``all-of-the-above strategy 
that develops every source of American energy.'' The President 
wants to fuel our economy with domestic energy resources while 
increasing our ability to compete in the clean energy race.
    The Department's fiscal year 2013 budget request of $27.2 
billion is guided by the President's vision, our 2011 strategic 
plan, and our inaugural Quadrennial Technology Review. It 
supports leadership in clean energy technologies, science and 
innovation, and nuclear security environmental cleanup.
    Decades ago, Energy Department support helped to develop 
the technologies that have allowed us to tap into America's 
abundant shale gas resources. Today, our investments can help 
advance technologies that will unlock the promise of renewable 
energy and energy efficiency.
    The budget request invests approximately $4 billion in our 
energy programs. It advances progress in areas from solar to 
offshore wind, to carbon capture utilization and storage, to 
smart grid technologies. And it helps reduce our dependence on 
imported oil by developing next-generation biofuels, advanced 
batteries, and fuel-efficient vehicle technologies.
    The budget request invests $770 million in the nuclear 
energy program to help develop the next generation of nuclear-
powered technologies, including small modular reactors. It also 
includes funding for the continued nuclear waste R&D, which 
aligns with the recommendations of the Blue Ribbon Commission 
on America's Nuclear Future.
    As we move to a sustainable energy future, America's fossil 
energy resources will continue to play an important role in our 
energy mix. The budget request includes $12 million as part of 
a larger R&D initiative by the Departments of Energy, Interior, 
and EPA to understand and minimize the potential environmental, 
health, and safety impacts of natural gas development through 
hydraulic fracking.
    The budget also promotes energy efficiency to help 
Americans save money by saving energy. And it sponsors R&D and 
industrial materials and processes to help U.S. manufacturers 
cut costs. To maximize our energy technology efforts in areas 
including batteries, biofuels, and electric grid technologies, 
we are coordinating research and development across our basic 
and applied research programs and ARPA-E.
    To encourage the manufacturing and deployment of clean 
energy technologies, the President has called for extending 
proven tax incentives, including the production tax credit, the 
1603 program, and the advanced energy manufacturing tax credit. 
As industry, Congress, and the American people make critical 
energy decisions, it is also important that we adequately fund 
the Energy Information Administration.
    Competing in the new energy economy requires our country to 
harness all our resources, including American ingenuity. The 
budget includes $5 billion for the Office of Science to support 
basic research that could lead to new discoveries and help 
solve energy challenges. These funds support progress in 
material science, basic energy science, advanced computing, and 
more.
    The budget request continues to support Energy Frontier 
Research Centers, which aim to solve specific scientific 
problems to unlock new clean energy development. It also 
supports the five existing energy innovation hubs and proposes 
a new hub in electricity systems. Through the hubs, we are 
bringing together our Nation's top scientists and engineers to 
achieve game-changing results.
    Additionally, the budget request includes $350 million for 
ARPA-E to support research projects that could fundamentally 
transform the ways we use and produce energy. ARPA-E invests in 
high-risk, high-reward research projects that, if successful, 
could create the foundation for entirely new industries.
    In addition to strengthening our economy, the budget 
request strengthens our security by providing $11.5 billion to 
the National Nuclear Security Administration. As the United 
States begins the nuclear-arms reduction required by the New 
START treaty, the science, technology, and engineering 
capabilities within the nuclear security enterprise will become 
even more important to sustaining the U.S. nuclear deterrent.
    That is why the budget request includes $7.6 billion for 
weapons activities. It also includes $1.1 billion for the Naval 
Reactors Program. Additionally, it supports NNSA's work to 
prevent nuclear terrorism, which is one of President Obama's 
top priorities. It includes $2.5 billion to implement key 
nuclear security, nonproliferation, and arms-control 
activities.
    Finally, the budget request includes $5.7 billion to 
continue progress in cleaning up the Nation's cold war nuclear 
sites.
    The budget request makes strategic investments to promote 
our prosperity and security. At the same time, we recognize our 
country's fiscal challenges and are cutting back where we can. 
We are also committed to performing our work efficiently and 
effectively.
    Countries around the world recognize the energy opportunity 
and are moving aggressively to lead. This is a race we can win, 
but we must act with fierce urgency.
    Thank you. I am now pleased to answer your questions.
    Mr. Frelinghuysen. Thank you, Mr. Secretary.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. Since I understand we have votes in the 
4 o'clock time frame, we will try to stick to the 5-minute 
rule. And that is for the Members to be aware of.
    Mr. Secretary, our committee has long supported--and this 
has been very bipartisan--the Department's efforts to keep the 
world's best science and engineering workforce here at home and 
to keep our position as the world's top innovator.
    We also need to think one step further by making sure we 
don't just invent the newest technologies but that we then 
manufacture them in the United States. After all, devoting 
Federal funding to support a research team of 10 people at home 
just so a company can support 1,000 manufacturing jobs overseas 
truly misses the mark.
    Mr. Secretary, beyond the advanced manufacturing program 
your budget proposes, how are you working--and this is very 
much in line with the ranking member's comments--to ensure that 
federally funded research and development conducted at American 
universities, our laboratories, and companies then leads to 
manufacturing and jobs here in these United States?
    Secretary Chu. Well, Mr. Chairman, first, I couldn't agree 
with you more. I think that if we invest in research in 
American universities or national labs or companies, that we 
would like to not only see that research lead to discoveries, 
but that research lead to manufacturing in the United States, 
because that is where we will see our future prosperity.
    The Department of Energy is working on this in a number of 
ways. First, when there are issues having to do with IP 
generated by the Department of Energy, we are looking at, if we 
support a startup company or research, what means we have at 
our disposal to make sure that it doesn't go to the highest 
bidder and just----
    Mr. Frelinghuysen. Well, what are those means?
    Secretary Chu. Well, I will tell you one example. We 
supported some research done by a company, BP Solar, which was 
based in America, on improving the manufacturability of silicon 
to drive the cost down. It was actually a successful program, 
but BP Solar decided that, given what was happening in China, 
that they were going to get out of this business. And we were 
taking steps to make sure that that IP generated by American 
taxpayers would have controls, so that it doesn't migrate.
    Mr. Frelinghuysen. So it did migrate?
    Secretary Chu. Well, it--no----
    Mr. Frelinghuysen. Well, what is the reference to China?
    Secretary Chu. Well----
    Mr. Frelinghuysen. We know that China is aggressive in this 
area, but----
    Secretary Chu. Right.
    Mr. Frelinghuysen [continuing]. If we made--and you gave 
this example yourself--if we made this substantial investment, 
what did we do to protect that intellectual property?
    Secretary Chu. Well, what we do is we look at the legal 
means we have of making sure. If this intellectual property is, 
quote, then ``sold'' to somewhere else, the United States will 
look at what means we have. But----
    Mr. Frelinghuysen. Well, respectfully, the Department of 
Energy has been in business for quite a long time. You have 
been the Secretary for a couple of years. This isn't new news 
here.
    We have the excellence represented by a lot of incredible 
talent at all our national laboratories, and they have been 
coming up with some pretty ingenious ideas. What is to prevent 
that ingenuity and innovation from being sucked out of some of 
our labs and finding ourselves confronting challenges based on 
the cheap labor and manufacturing base in places like India or 
China?
    Secretary Chu. Well, Mr. Chairman, what has happened in the 
last 10, 15 years is a growing realization that we can't take 
the industrial side of what we do for granted, but also an 
appreciation of how important it is that we remain a technology 
leader, especially in high-tech manufacturing that rests on the 
intellectual property that we generate here in the United 
States.
    Mr. Frelinghuysen. You headed up one of those laboratories.
    Secretary Chu. Correct.
    Mr. Frelinghuysen. And God bless you for doing that. And 
the investments we made in the variety of innovators and people 
under your area of responsibility, well, what prevented that 
information from migrating abroad?
    Secretary Chu. Well, first----
    Mr. Frelinghuysen. And what steps could we legally take if, 
indeed, it is possible in a global economy with the Internet--
--
    Secretary Chu. When we support the development of an idea, 
we can, in principle, look at steps, and we are doing this 
increasingly. We have the ideas first. We are greasing the 
interaction between the private sector in the United States and 
what comes out of the universities and national laboratories.
    In addition to that, if you support this research with U.S. 
taxpayer money, how do you begin to say, all right, we don't 
want to see this then go to the highest bidder? These are 
complex things that we are looking at, and it----
    Mr. Frelinghuysen. Well, we shouldn't be looking at it. How 
about, how are you acting on it? I mean, are the horses already 
out of the barn here? Have we come up with a lot of ingenious 
ideas and innovations and patents and are they being marketed 
by our global competitors?
    Secretary Chu. Well, the U.S. Government doesn't have 
complete control over certain things. And so when a company, 
let's say a startup company, picks up an intellectual property 
and develops it, depending on what that company----
    Mr. Frelinghuysen. We just don't want them setting up shop 
outside Beijing, I mean, especially if we, as the taxpayers, 
have made these types of investments.
    Secretary Chu. Right. So, it is a set of reasons to 
encourage American companies to set up manufacturing in the 
United States. That set of reasons includes provisions on 
whether they can use research supported by the Department of 
Energy, but they also include issues having to do with the 
climate in the United States, the fiscal policies and the tax 
policies.
    Mr. Frelinghuysen. We know the climate here, and it is not 
enuring to our benefit at the moment.
    So let me yield to the ranking member, who through his, I 
think, opening statement shares very much my concern here. I 
mean, he can speak from an industrial base that has been 
stripped of a lot of its assets.
    Mr. Visclosky.
    Mr. Visclosky. Thank you, Mr. Chairman.
    Secretary, I have a couple of questions, and we have 5 
minutes, at least on this first round. I would associate myself 
with the chairman and am very concerned.
    We had the buy-American provision for the stimulus bill in 
2009, but it applied only to infrastructure investment. And 
when credits were used for energy programs, much of those 
facilities and products were imported. I am told we have 
already lost tier-one production facilities and possibilities 
for solar. I produce more steel--I don't, my workers do--in my 
district than any State in the country. And every time I see a 
250-ton windmill imported because we don't make it here, I get 
furious.
    I appreciate that the last time we had a discussion, you 
initiated the conversation that there is a focus now at the 
Department about making sure that the intellectual firepower 
that you have is going to be used with a goal of making sure 
goods and products are manufactured. I do appreciate that.
    The question I have on manufacturing, just to follow up, 
though, is, there is a proposal for a manufacturing 
demonstration facility within the 2013 budget. And, again, on 
first blush, I think that is a swell idea.
    The concern I have is, over about the last 3 to 5 years, 
the Department has established the Bioenergy Research Center, 
Energy Innovation Hubs, the Energy Frontier Research Centers, 
Industrial Assessment Centers, Clean Energy Regional 
Application Centers, and manufacturing energy centers. And the 
obvious question is, do we need that? Do we have too many 
centers? Are we dissipating our efforts?
    Secretary Chu. No, I don't think we are dissipating our 
efforts.
    First, you have named a lot of centers, so let me start 
with the bioenergy centers that were started----
    Mr. Visclosky. I don't want--I am just saying, why do we 
need the manufacturing demonstration?
    Secretary Chu. Okay. Fair question.
    Mr. Visclosky. Because, again, I have about 3 minutes left 
here.
    Secretary Chu. Let me focus on that.
    Those centers specifically are centers in which you work 
with American companies and they are almost like incubator 
companies--I have toured one, it was a carbon composite, it was 
done in conjunction with Oak Ridge--where you have companies 
and you test new manufacturing methods. So these companies say, 
``well, we don't really know whether this is going to work or 
not.'' So, you have a facility that helps them develop new 
manufacturing methods that can enable them to produce carbon 
composite materials, which virtually the whole world thinks 
will be a material of the future, cost-effectively, so that you 
can actually embody them in American products.
    These are American companies that use this facility and 
say, look, we are going to do some experiments. Maybe these 
companies can't afford some of this stuff, but here is a 
facility. It is like an incubator house. Come and we will help 
you get started.
    Those are examples of the manufacturing facilities which I 
think are directly applicable to help keep manufacturing in the 
United States.
    Mr. Visclosky. Okay.
    Two last questions. The second one deals with the issue of 
management. And I would note that in the 2011 report by the GAO 
they did indicate that the Department has made progress toward 
many of the recommendations relative to the watchlist, but also 
suggested that DOE needs to commit sufficient people and 
resources to resolve its contract management problems. You 
still have, obviously, NNSA as well as environmental cleanup, 
which is about 60 percent of your budget, on the list.
    Further, very recently, the National Academy of Sciences 
issued a report that talked about how serious management issues 
are hampering the work at NNSA, a weapons laboratory, noting 
persistent levels of mistrust, calling the relationship 
``dysfunctional.''
    What additional actions are you taking relative to the 
National Academy's report and that just persistent year-in and 
year-out appearance of DOE on that watchlist?
    Secretary Chu. Well, with regard to the watchlist, as you 
noted, the Office of Science is now off the watchlist. And if 
you look at their recent record, it is 100 percent on time, on 
budget. That is existing proof in the Department of Energy that 
one can develop very complex multibillion-dollar budgets and 
carry them through in projects. I knew that when I walked in 
the door. It was a concerted effort to export those best 
practices in the Office of Science to NNSA and to environmental 
cleanup.
    Let me very, very briefly say that a strong common 
denominator, especially in complex projects, for example, what 
the NNSA or WTP are doing, is you don't start construction 
until a large fraction of the engineering drawings are done. If 
you start putting shovels in the ground when you have 10 
percent of the design done, you will invariably find out--this 
is not only true in government projects; this is true in the 
private sector, as well--you invariably find out that, oops, 
you should have done more design before you actually started 
the construction.
    So a lot of the things that you see have been things put in 
progress years ago. There is now a concerted effort to make 
sure that you progress further along at, first, budget 
estimates, but also be very reluctant to start putting shovels 
in the ground until you know what you are going to be building.
    Mr. Visclosky. All right. In light of that National Academy 
report, I would ask that you just really----
    Secretary Chu. Right. I would love to tell you about that, 
but another day.
    Mr. Visclosky. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Mr. Visclosky.
    The big chairman, Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    Coal provides roughly 50 percent of the Nation's 
electricity today. If we went completely at 100 miles an hour 
developing other sources, you are still going to need coal for 
the foreseeable future. It is an abundant resource that we 
have; we are called the Saudi Arabia of coal. It is 
inexpensive, relatively speaking, on the world market for 
energy.
    And yet it seems this administration is intent on 
completely shutting off the use of coal and the mining of coal 
for the purpose of generating electricity. The EPA is issuing 
regulations almost every day. And with the most recent MATS, 
the mercury and air toxics standards rule that they issued, 
there is no technology capable of meeting those standards. And 
so, consequently, there can be no new coal plants because of 
that rule, among others.
    And at the same time that EPA is demanding new technologies 
for compliance with their regulations, you are cutting the 
research that would develop those technologies. That seems to 
me to be incomprehensible. We have two agencies of the 
government at cross-purposes.
    The Fossil Energy Research and Development Program in your 
department has played an important role in improving existing 
technologies and inventing entirely new ones. Your request for 
funding for fossil energy R&D is cut by 21 percent, a $113 
million cut. The request cuts advanced energy systems by $45 
million; that is almost half. And it cuts cross-cutting 
research by $19 million, which is 40 percent.
    In essence, on the one hand the EPA is saying, ``You can't 
build a new plant because you don't have the technology to burn 
coal the way we want it burned,'' and you are saying, ``But I 
am not going to give you the money to find those ways to burn 
coal the way you would like.''
    Help me out here. Am I confused?
    Secretary Chu. Well, Mr. Congressman, I have to say that I 
am very supportive of developing those technologies that you 
speak of to be able to use gas and coal in a clean way. We 
believe that it is very important to develop those technologies 
not only in the United States but in partnership with the 
world. Coal will be around for a long time, and we recognize 
that. I think Congressman Womack was at this ARPA-E summit and 
he heard me speak about that this morning, how important it is 
that we continue that research.
    Part of the issue in the budget was that there was a lot of 
money rescinded in some of the carbon capture and sequestration 
projects that were a partnership between the government and the 
private sector. What we are trying to do, our viable path 
forward is that there is a beneficial use of carbon dioxide 
which will further our research in capturing carbon dioxide to 
be used to enhance oil recovery, but also, as we pump the 
carbon dioxide in the ground, we will learn a lot about what is 
going on.
    What we say is, ``All right, we understand. We are still 
interested in that.'' And so we are trying to work with 
industry and reprogram some of this. We have interest in having 
the carbon capture, and the sequestration part is now enhanced 
oil recovery, which will tell us a lot, and it will help 
sequester in the short term, meaning the 5 or 10 years. We are 
going to learn a lot from that.
    Mr. Rogers. But you cut the funding. You are proposing to 
cut the funding. You are going to cut fossil energy research 
and development by 21 percent. You are cutting advanced energy 
systems almost half, cross-cutting research by 40 percent.
    Secretary Chu. Uh-huh.
    Mr. Rogers. All the while, you are increasing funding for 
all the other research programs other than for coal. Notably, a 
$500 million increase for the renewable program, which is 
already funded at $1.8 billion.
    How do you explain that? That is completely contrary to the 
answer you just gave me, if I understood you correctly.
    Secretary Chu. Well, as I said, we do support the research. 
There is a----
    Mr. Rogers. Then why are you cutting it? Drastically 
cutting it. That is a funny way of supporting it. How are you 
supporting it other than with money?
    Secretary Chu. We are supporting it with money. We are 
supporting it with trying to work with the utility companies on 
these projects.
    Mr. Rogers. Well, there have been lots of applications for 
fossil energy R&D. I don't think any of them have been 
approved.
    Secretary Chu. R&D? Excuse me? No, loan guarantees.
    Mr. Rogers. Loan guarantees. I am sorry.
    Secretary Chu. Yeah. I think the loan guarantees are ones 
we are working through. These are very complex issues. We have 
the loan money. We are working through that. And these are 
complex issues. And I would like to see that loan money used.
    Mr. Frelinghuysen. I would like to go to Norm. Is that all 
right?
    Mr. Rogers. Yeah.
    Mr. Frelinghuysen. Mr. Dicks, the ranking member.
    Mr. Dicks. Can you bring us up to date on Yucca Mountain?
    Secretary Chu. As far as I know, what is happening is that 
this is before the courts and we are awaiting the decision of 
the courts.
    Mr. Dicks. We understand that if, in fact, the courts 
rule--and we believe that this still is the law of the land--
that you have to start forward. How much would you estimate it 
would cost to get this project back up, you know, moving 
forward?
    Secretary Chu. I would have to get back to you on that. But 
certainly if the court's order is to proceed, we will proceed. 
I can get back to you on the exact details of how much----
    Mr. Dicks. We understand it is around $100 million to get 
started.
    Now, tell us about your blue-ribbon commission. What 
recommendations did they have on nuclear waste?
    Secretary Chu. Well, what they recommended is, first, they, 
as we all do, acknowledge that we have to solve this problem, 
and it is very important that we do solve the problem.
    They spent about 2 years, many, many meetings, very 
thorough job, and I commend them for the excellent job. But one 
of the things they noted was that other countries have done it 
in a different way, notably Sweden. They think also Finland has 
gone a different way. And so what they have found was that----
    Mr. Dicks. Can you tell us what those ways are?
    Secretary Chu. Yes. Sweden set up a public-private type of 
company. It is hard to describe--maybe TVA is the closest thing 
to that, but it is not officially in, let's say, the Department 
of Energy. With this, they also noted, if you can convince the 
people that this can be done in a safe way, there are economic 
benefits. What could have been, let's pick you, and you like it 
or not, it is going there. It turned out to be three 
competitive bids for the right to put the spent fuel in these 
sites. So it was a competition that kind of went completely in 
reverse. In fact, the losers, the people who did not get the 
site picked, actually had some side benefits. But there was a 
serious competition to say, we see economic benefit, and if you 
do this in a safe way, you can control the downsides.
    We actually have an example of that in the United States in 
the low radioactive waste in New Mexico called WIPP, in 
Carlsbad, where it has been operating for 11, 12 years, roughly 
that period of time. Great economic benefit, no accidents. It 
is being done in a very safe way, and it has been economic 
prosperity for that region.
    Mr. Dicks. You know, in my hometown of Bremerton, 
Washington, we have a big shipyard, and nuclear-powered 
submarines come in. And the waste is taken off the submarines 
and sent over to Mr. Simpson's NREL in Idaho, and they are 
supposed to send it on to Yucca Mountain. There are agreements 
here. This got up to the top level of the Clinton--I guess it 
was the Clinton administration. And there is a time, I think it 
is in, like, 2025, this has to happen, or Idaho will no longer 
be obligated to receive this waste.
    So this has implications. The fact that we are just, you 
know, letting this thing go on and on and on I think is a big 
mistake. And I was here, I voted for this, to do it at Yucca 
Mountain. And I think that is the law of the land. It hasn't 
been changed.
    I can't believe the courts are going to sustain your 
position. So you better start looking at these--you had better 
start figuring out how you are going to get Yucca Mountain 
moving forward.
    You just can't declare something at the executive branch 
that it is no longer the law. You have to come to Congress and 
get the law changed. That hasn't happened.
    Secretary Chu. Well, that was another very important 
recommendation of the Blue Ribbon Commission, that it is really 
is up to Congress, if Congress wants to change the law, and we 
would be willing to work with Congress to do that.
    We take the legal obligations very seriously. I think it is 
2035 you have to get prepared, and by 2037 you have to begin 
shipping.
    Mr. Simpson. By 2035 it has to be out of State.
    Secretary Chu. Okay. So, yes, we know that those are very 
serious legal obligations.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Mr. Dicks.
    Mr. Lewis.
    Mr. Lewis. Thank you very much, Mr. Chairman.
    Dr. Chu, thank you very much for being with us. I can't 
help but scratch my head about the fact that we are able to 
acquire someone of your background and talent to serve in this 
capacity. To say the least, beyond the heat you will be taking 
from committees like this, your willingness to serve is very 
much appreciated by many of us.
    Secretary Chu. Thank you.
    Mr. Lewis. Your background is well known, a Nobel Prize 
winner in the arena of physics. But beyond that--you are 
celebrating your anniversary--is another thing. Your bride, Dr. 
Jean Chu, holds a doctorate in philosophy, as I understand it, 
in physics from Oxford University. And above and beyond that, 
she served as chief of staff for two Stanford University 
presidents, as well as dean of admissions. My God, it would be 
interesting to hear what you guys talk about at night.
    Secretary Chu. All I know for sure is she would not have 
admitted me.
    Mr. Lewis. I must say, your service is very much 
appreciated.
    But beyond that, the panel probably doesn't realize this, 
but Yucca Mountain has for all these decades essentially been 
in my district. And it strikes me that unless we learn from 
this most recent history, we are bound to repeat the disaster 
that is Yucca Mountain.
    I was fooling around with a figure earlier, thinking that 
we had spent something in the neighborhood of $9 billion in the 
Yucca Mountain catastrophe. It is closer to $14 billion, as 
staff tells me.
    In connection with that, in the early days of Yucca, all 
the politicians, who want to solve this problem purportedly, 
were supportive of Yucca Mountain as the location, especially 
when it was producing jobs in the local economic community. And 
then you move forward, and, lo and behold, there is some 
controversy around this subject, and all of the politicians 
flee, in spite of the billions of dollars they signed on to 
earlier.
    The concern that we have to have is that, first of all, we 
must solve this difficulty in an environment that is a 
political environment. And Lord knows if we are not careful 
about learning from the past, we are bound to repeat it. We 
will spend billions of dollars again for another location 
following Yucca Mountain, and, lo and behold, what will happen?
    So one way or another, we have to think through the pure 
politics of this if we are going to make serious progress. And 
the Congress ought to be trying to help you work their way 
through that, and I can't say that we have done that very well 
up to this point.
    Secretary Chu. Can I respond?
    Mr. Lewis. Sure. Please do.
    Secretary Chu. First, thank you for your comments.
    I agree with you. And one of the recommendations of the 
Blue Ribbon Commission is to set up this semi-autonomous arm, 
like a TVA, that says, get it out of the political arena, get 
it so that you can have very competent people. Take a very 
professional attitude: what will be in the best interest of the 
United States in solving this problem?
    So that was certainly one of the recommendations. But right 
now, it is up to Congress to weigh these considerations and to 
decide. But that is one of the clear recommendations of the 
Blue Ribbon Commission.
    Mr. Lewis. Well, in the meantime, we are struggling with 
this reality. It was not that long ago that others in the arena 
where I serve, where Yucca Mountain is located, we all 
supported that this should go forward, it was a logical 
location. I mean, lo and behold, the next time you locate a 
facility, please don't locate it somewhere near the Speaker's 
district, because the problems there will be endless, as well.
    So between here and there, I would hope that your policy 
people would work very closely with us to try to have us 
together, hand-in-hand, have an independent commission or 
otherwise not just work effectively but get results at the 
other end.
    Thank you.
    Mr. Frelinghuysen. Thank you.
    Mr. Fattah.
    Mr. Fattah. Thank you, Mr. Chairman.
    And welcome, again, to the Secretary.
    I wanted to go back to this question of technology transfer 
and jobs. I have visited many of the Federal labs including 
Fermi Lab and Argonne Lab. I think that the Department has done 
an extraordinary job, particularly with regards to the 
stewardship and modernization of the nation's nuclear weapons. 
And I know that the committee has done a lot to make sure that 
we have fully funded those efforts.
    This issue about government-funded research is not limited 
to the Energy Department. NASA has got 17,000 patents. I mean, 
we could go through the list. I know that the White House has 
required all of the departments to work on this question of 
technology transfer and jobs, and that the Department of Energy 
is working hand-in-hand with the Commerce Department and the 
National Innovation Marketplace, to get American manufacturers 
a first run at many of these opportunities.
    This is a serious issue. And as a scientist, you will 
appreciate that on the one hand scientists want to have broad 
interactions around inventions and new ideas and new approaches 
in the scientific community. However at the same time, we are 
in economic competition with other countries. Making all this 
information public, making it available, leads to our economic 
competitors getting opportunities to pick the fruit off of 
trees that we planted with American taxpayer dollars.
    So I believe the issue here with regards to research that 
is taxpayer funded is that we want those jobs--the new widgets 
that are going to be made, we want them made here in America. 
So I have introduced legislation in this regard, H.R. 2015--it 
is called the American Discoveries and American Jobs Act--which 
would focus the country on this question.
    Because one well-intentioned lab personnel told me 
directly, he has four patents, he tried to build these products 
here in America, but he got a much better offer somewhere else. 
All of the research was paid for by American taxpayer dollars, 
but those jobs are some other place.
    And there is a lot that we need to work on in this regard, 
and I am a big proponent of research. I think our labs are a 
tremendous asset. I traveled with the chairman and Mike Simpson 
and others, and I was just amazed at the work that is being 
done by the thousands and thousands of Ph.D.s on behalf of the 
American people. But we want to make sure that the jobs that 
are created by this work--stay here. And I believe that there 
is a lot of work that we have to do within that context.
    Congress has to be involved. If we are going to tax someone 
who is working every day in my district or someone else's 
district and invest those dollars in some very smart people who 
come up with new ideas that they eventually take out to the 
commercial market and as a result make a lot of money then we 
want to ensure that the jobs that emanate from this at least be 
somewhere in the domestic United States, so that the whole 
country benefits from this.
    So whether it is MRIs or LASIK eye surgery or GPS, all of 
this is, at its base was government-funded research. And we 
have to figure out a way to make sure that the jobs that 
emanate from this research help us reinvigorate our 
manufacturing base.
    So I would be interested in you taking a look at the 
legislation. It is not, obviously, cast in stone. It is 
probably not going to pass any time in the near future. But I 
do think we have to work together in this regard.
    Mr. Frelinghuysen. Thank you, Mr. Fattah.
    Mr. Simpson, whose name was invoked a few minutes ago.
    Mr. Simpson. And very well, I must----
    Mr. Frelinghuysen. Very well.
    Mr. Simpson. I am glad to see somebody else brought up 
Yucca Mountain first. Actually, I am--well, I don't know that I 
am not going to bring it up.
    A couple of quick questions. First of all, it is 
interesting that when you mention WIPP and the Carlsbad area 
and how that has created jobs and economic benefits--if you 
will remember back to the beginning of WIPP, Congress had to 
force WIPP on Carlsbad. It was not readily accepted by the 
people of New Mexico. We were sued several times and everything 
else. So sometimes these things have to get done one way or 
another, which has been the issue with Yucca Mountain, 
obviously.
    Has the Department embraced the Blue Ribbon Commission's 
recommendations? And if so, will it require legislation to 
implement some of those provisions? And if so, will you present 
that to Congress or will it be done by administrative fiat, 
such as closing Yucca Mountain?
    Secretary Chu. No, I think it is very clear that Congress 
will have to play a very key role if it wants to amend the 
Nuclear Waste Act. And that was very clearly stated in the Blue 
Ribbon Commission Report.
    Mr. Simpson. It would take an amendment of the Nuclear 
Waste Policy Act?
    Secretary Chu. It depends on what parts you are talking 
about. For example, one of the recommendations was that there 
are fees collected from the power generators; and those fees 
are a considerable amount of money, three-quarters of a billion 
dollars a year.
    Mr. Simpson. Right.
    Secretary Chu. And they recommended that some fraction of 
those fees start to go to this. If a semi-private organization 
is set up, that takes it away from yearly appropriations it 
puts it on a more professional basis. It can start with a small 
fraction, but let that begin, because those moneys were clearly 
collected for that reason.
    Mr. Simpson. And it is recommended that that occur 
promptly, if I remember correctly.
    Secretary Chu. Well, but that would require an act of 
Congress.
    Mr. Simpson. Have you proposed it?
    Secretary Chu. We would love to work with Congress in 
deciding what Congress would be willing to accept on those 
things. That is one example.
    Another example is the Blue Ribbon Commission points out 
that you would want both the permanent storage sites and you 
would want interim sites.
    Mr. Simpson. Well, don't let this turn into a Simpson-
Bowles, where we go out and we make all these recommendations 
and then nobody pushes it forward. If you are going to push it 
forward, then push it forward----
    Secretary Chu. Right.
    Mr. Simpson [continuing]. And come and work with Congress 
to get it done.
    Secondly, along the lines of what Mr. Rogers was talking 
about, 50 percent of our electricity is produced by coal, 20 
percent by nuclear power. When I look at your budget, I look at 
huge increases in the renewable energy, which is the very small 
part of the electrical portfolio, and cuts in the other area 
that is producing most of the electricity.
    And I am, frankly, disappointed that we are seeing 
reductions in small modular reactors. This was the new road we 
were going to head down, but we are seeing reductions in that 
arena.
    So it seems to me like there is an agenda of trying to push 
the green technology, when, in fact, nuclear energy I think is 
green technology. It doesn't put green house gasses in the air. 
And if you are really going to address global climate change, 
you had better adopt nuclear energy. And it doesn't seem like 
we are doing that in this budget. This is the first time I have 
seen a retrenchment in this administration in advancing nuclear 
energy. The talk is all there, but the budget doesn't reflect 
it.
    Secretary Chu. Well, I think you know very well my support 
of nuclear energy and my support of clean coal. So we are 
trying to push what we can where we can do this. I think in 
this century those things will play an important part of our 
energy mix.
    Mr. Simpson. Yes, they will play an important part.
    One other question. You recently testified that you intend 
to separate civilian and defense nuclear fuel issues. Do you 
believe that you have the legal authority to do that under the 
Nuclear Waste Policy Act, to overturn a previous Presidential 
determination of how to handle these materials together? 
Frankly, I don't want to see defense nuclear waste be an orphan 
left at places that it currently is.
    Secretary Chu. No, I agree. I mean, we----
    Mr. Simpson. How do you plan to handle them differently?
    Secretary Chu. Well, they are different, number one. And we 
have a responsibility for both of those in the U.S. Government, 
writ large, has a responsibility to handle both of those waste 
streams.
    They are different; if nuclear power is going to be part of 
our energy mix in this century, it requires considerably more 
attention. But that is not to say that the other is not 
important.
    Mr. Frelinghuysen. Thank you, Mr. Simpson.
    Mr. Olver.
    Mr. Olver. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for being here today. It may 
surprise you, but I think you have actually put forward a 
fairly reasonable and responsible budget. I wanted to just 
clarify a few things.
    You referenced in your written testimony that the R&D that 
we do is 5 or 6 percent and that of China is something like 20 
percent. China is, of course, a very swiftly emerging economy--
growing and emerging economy. And the other two largest, Japan 
and Germany I guess would be the third and fourth largest 
economies after China and the U.S. What are the R&D budgets 
that they put forward?
    Secretary Chu. Well, you know, off the top of my head, I 
can't really say exactly how the R&D budgets breakdown, but I 
can say that China especially has a very strong commitment to 
those industries which China deems will be an important part of 
their economic prosperity in the future.
    And for that reason, that is why they are investing in 
many--they want to diversify from coal. They are heavily 
dependent on coal, but they are investing in nuclear reactors. 
They are going to be the biggest deployer of wind and solar in 
the world in their country, but they also view that as 
something for export, as well.
    Mr. Olver. Okay. Well, I was just hoping that I could get a 
sense whether or not other really mature economies, like 
Germany and France, were doing numbers much more similar to us. 
Because I think all of the really fast emerging economies would 
be doing more R&D than we would be doing. But I will leave 
that. We can discuss it at another point.
    Some of our R&D major activities have been the Engineering 
Frontier Research Centers. I guess we now have 46 of those. 
Those have been standing for a couple of years now. Do you have 
an ongoing program for oversight or for measuring what the 
output of those centers is----
    Secretary Chu. Yes.
    Mr. Olver [continuing]. At this point, or----
    Secretary Chu. Yes.
    Mr. Olver [continuing]. Is it far too early?
    Secretary Chu. We are starting a very thorough review of 
the effectiveness of those EFRCs and have very rigorous 
policies on how to evaluate them, based on outside scientific 
referees, to see how each one is doing. The ones that are 
working very effectively we would like to continue. The ones 
that are not, we are going to have some discussions----
    Mr. Olver. What is a fair period of time to begin to 
account?
    Secretary Chu. Well, every year they are reviewed. But I 
think this next review is a much more thorough review, and so 
then you step back and look over the next couple of years. But 
every year----
    Mr. Olver. If they were established in 2009, they could not 
have been functioning effectively, if at all, until probably 
late 2010, in any case.
    Secretary Chu. Well, that is right. So we are about 2 years 
into this. I think some of the EFRCs started in middle 2008. I 
am not actually sure of the exact dates, but let's say 2009, 
2010.
    Mr. Olver. Are the hubs also standing at about the same 
time, or are they more recent?
    Secretary Chu. Well, they are more recent, except for the 
three hubs which are the energy biocenters--they got started in 
the last administration. Those were actually the prototypes of 
what we had but expanding beyond----
    Mr. Olver. Those were for the energy research centers? 
Frontier research centers?
    Secretary Chu. I am thinking 2006 or 2007. About the same 
time roughly, maybe a little earlier. The bioresearch centers--
again, I can get back to you on the details--may have come a 
year or 2 earlier than the EFRCs and the energy hubs.
    Mr. Olver. Okay. You are asking for an additional hub. 
There are five up and standing, and you are asking for a sixth 
one. And in your testimony you said ``electricity systems.'' 
Can you tell me what you mean by ``electricity systems''?
    Secretary Chu. Well, if you look at the electricity system 
in the United States, it is a very complex organism, if you 
will. And----
    Mr. Olver. Is this the delivery system?
    Secretary Chu. It is the transmission and distribution 
system.
    Mr. Olver. The grid?
    Secretary Chu. It is the delivery system, it is to control 
the flows of electricity. As you work to go to a modern grid 
that controls how you flow the electricity, you want to look at 
where there are potential vulnerabilities in the grid.
    Mr. Olver. Would that hub be responsible for trying to 
figure out how to reduce greatly the loss of power over 
distance? The delivery of power in a much more efficient 
manner?
    Secretary Chu. That wouldn't be the----
    Mr. Frelinghuysen. Mr. Secretary, if you could maybe 
summarize in response to that question. I want to get everybody 
in here before we blow the whistle for votes.
    Secretary Chu. Okay.
    I will give you the details, but that is not the central 
focus. It is not over long distances. It is more distribution 
and control systems.
    Mr. Frelinghuysen. Thank you, Mr. Olver.
    Mr. Rodney Alexander.
    Mr. Alexander. Thank you.
    Mr. Secretary, the President's budget includes an 
interagency study that says that the Department of Energy, EPA, 
and USGS are partnering to study the environmental and health 
effects of hydraulic fracturing. Can you tell us a little bit 
about what that might lead us to?
    Secretary Chu. Well, as you know, the President tasked us 
to set up a subcommittee to look at hydraulic fracturing. I 
think the conclusions of that subcommittee report were that we 
believe that hydraulic fracturing can be done in an 
environmentally responsible way so that you can take advantage 
of this great resource, and, it creates jobs. We think that gas 
is a very important fuel mix and a transition that we will be 
needing in this century.
    And so, what we fully believe we have in the Department of 
Energy--and it is also aligned very closely with the expertise 
in USGS--is we have a lot of expertise in how fluids move in 
rock and how do you develop the technologies so that we can 
help industry know what is happening and develop this resource 
in an environmentally responsible way.
    Mr. Alexander. Well, how much time are we talking? The 
President in his State of the Union Address said that the 
government has been investing in shale energy extraction 
research for over 30 years. So how much more do we need to 
study it to determine----
    Secretary Chu. Well, what the President was referring to in 
that case was, from 1978 until 1992, the Department of Energy 
invested in horizontal drilling and hydraulic fracturing at a 
time when industry wasn't really interested in it. And when 
industry began to pick it up in a real way, the U.S. Government 
got out of it.
    Now, since that time it has been a story in which the 
development of shale gas and shale oil has been quite 
remarkable in the last half-dozen years. But there also are 
active environmental concerns. There are reports on fugitive 
emissions, things of that nature.
    So the research we now want to do in the Department of 
Energy and the USGS is, all right, first, what is really 
happening? And, secondly, how do you keep on advancing best 
practices? Because we improve on virtually everything we do 
going forward. And, as I said, how could our research help in 
developing and improving the practices that are more focused on 
making sure that the water tables aren't contaminated, things 
of that nature.
    Mr. Alexander. Is the administration looking for a reason 
to shut down fracturing?
    Secretary Chu. No.
    Mr. Alexander. Okay. Thank you.
    Mr. Frelinghuysen. Thank you, Mr. Alexander.
    Mr. Womack, thanks for your patience down there.
    Mr. Womack. Thank you.
    And happy birthday, happy anniversary. And my compliments 
to the Secretary for his comments this morning at the ARPA-E 
energy summit. I found your comments to be enlightening. And a 
well-attended event, by the way. And my compliments to Arun 
Mujumdar, who was hosting the event.
    I want to stay on the natural gas subject for just a 
moment. I am troubled by the fact that, when you look at the 
budget numbers, a little over $2 billion in renewable energy 
requests, and if I am reading the numbers correctly, we are 
looking at just a few million dollars on the subject of natural 
gas. And as was indicated in that previous round of 
questioning, that money is dedicated, if I heard correctly, to 
determining whether or not--you have said it has promise, but 
to make sure that we are not doing something environmentally.
    So can you help me? I know those numbers--that is a wide 
range. And the numbers from the information agencies suggest 
that natural gas use by 2035 will be equal to all the 
renewables put together. So those numbers just don't seem to 
match up to me. Help me out with that.
    Secretary Chu. Sure.
    Let's bring in all of energy, including our transportation 
energy, which is roughly 38 percent or so of our energy, and 
how much the United States spends on either oil created 
domestically, produced domestically, oil produced and imported, 
that is probably, my guess would be, something to the order of 
$700 billion, $800 billion a year.
    And our energy budget is not commensurate to how much we 
spend on oil, because oil is a very mature technology. The 
budgets we would spend on oil would be having to do with 
helping improve safety and helping improve technologies with 
regard to, for example, deepwater drilling.
    So one shouldn't really look at the budget in relation to 
what we are spending as a country, and this is how we try to 
make these decisions. We try to invest in areas which are 
younger, earlier technologies. We are investing, for example, a 
small amount of money but a very important amount of money in 
seeing whether methane hydrates can be developed, again, 
because industry hasn't really decided whether this is going to 
be something--it is exactly what the Department did in the late 
1970s and 1980s.
    So what we try to do is invest in things where we think the 
taxpayers have the most leverage and can push the technologies 
forward in these various areas.
    Mr. Womack. All right.
    Speaking of leveraging, we have kind of a chicken and an 
egg. And I want to go to natural gas as a mobility fuel now. 
And I have listened with a lot of interest to Mr. Fred Smith 
this morning, from FedEx, on the use of natural gas, in their 
fleet.
    And in my district, with the Arkoma Basin, the Fayetteville 
shale, and with the gas plays that are happening throughout our 
country, there seems to be growing demand for compressed 
natural gas as a mobility fuel. However, chicken and egg, we 
don't have the infrastructure to support it.
    So how is DOE involved in helping us get to the level where 
that readily available resource can be put to good use?
    Secretary Chu. Right. Excellent question.
    First, I agree completely with Fred Smith about his 
assessment of liquified natural gas and heavy trucking that is 
a significant part of our transportation energy use; it is 20 
percent. A couple hundred filling stations on major 
interstates, you could offset a lot of that. We looked at the 
numbers. It looked very promising. Payback periods something on 
the order of 3, 4 years for an investment in a more expensive 
truck. The private sector is getting behind and investing 
hundreds of millions of dollars.
    So heavy trucking, very few filling stations. We think this 
is a great way to diversify our energy supply. When you go to 
delivery vans and when you go to personal vehicles, different. 
Because you can't have selected every 200 miles on an 
interstate. You need a lot more.
    So we think that compressed natural gas is the solution. 
However, we need better storage. You either have a very 
expensive tank at a very high pressure, a carbon fiber tank, or 
you have a very heavy tank, which is really not considered an 
option, like a scuba tank.
    And so what we have looked at this and it is the best thing 
we feel the Department of Energy can do--and we are putting out 
this Funding Opportunity Announcement--is to do two types of 
research: one, to decrease the tank costs so it is not an 
additional one-quarter to one-third extra in the vehicle, so 
you can use compressed natural gas, which we have more readily 
available infrastructure. And the other is to actually look at 
research where you can have the gas absorbed in a material in 
the tank, so you have the same storage capacity----
    Mr. Frelinghuysen. I have to interrupt here. If you could 
just finish your sentence, and then we are going to move on to 
Mr. Nunnelee.
    Secretary Chu. So, again, it is a technological solution. 
If we didn't do this, again, we would offload a lot more, and 
we would be very thrilled by that.
    Mr. Womack. Thank you, Secretary.
    Mr. Frelinghuysen. Thank you, Mr. Womack.
    Mr. Nunnelee, thank you for your patience at the end of the 
line here.
    Mr. Nunnelee. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for being here.
    Before you were nominated, you were quoted as saying, 
quote, ``Somehow we have to figure out how to boost the price 
of gasoline to the levels in Europe.'' I can't look at 
motivations, I have to look at results. And under this 
administration, the price of gasoline has doubled. While we are 
bumping $4 a gallon in north Mississippi, today the price of 
gasoline in Europe is about $8 a gallon.
    And the people of north Mississippi can't be here, so I 
have to be here and be their voice for them. And I have to tell 
you that $8-a-gallon gasoline makes them afraid. It is a cruel 
tax on the people of north Mississippi as they try to go back 
and forth to work. It is a cloud hanging over economic 
development and job creation.
    And it appears to me this administration continues to drag 
its feet on oil exploration, on fossil fuel development and 
recovery. How do you respond to that?
    Secretary Chu. Well, I think absolutely we should be judged 
on what we are doing, and I should be judged on my track record 
from when I became Secretary of Energy. And when this 
administration started, we were in a free-fall in a recession, 
and the price had plunged from roughly $140 a barrel down to a 
little under about $40 a barrel.
    We will do everything in our powers--and we agree that 
there is great suffering when the price of gasoline increases 
in the United States. We are very concerned about this.
    As I have repeatedly said, in the Department of Energy what 
we are trying to do is diversify our energy supply of 
transportation so that we have cost-effective means. Natural 
gas is great, and so we are pushing on natural gas for 
transportation.
    In electrification, in the battery research that we have 
been funding, we have had some pretty spectacular 
breakthroughs, one just announced yesterday that looks like it 
is going to at least decrease the cost of these batteries 
twofold and maybe more.
    Biofuels is a very aggressive program, started in the 
previous administration but continuing, again, to diversify 
that supply of transportation fuel.
    So these are the things we are doing. And we are very 
focused on that because we understand the economic impacts that 
it has on all Americans and our economy.
    Mr. Nunnelee. But is the overall goal to get our price----
    Secretary Chu. No, the overall goal is to decrease our 
dependency on oil--to build and strengthen our economy and to 
decrease our dependency on oil.
    For the first time, you know, in the last 8 years, through 
a lot of policies put in in this administration and in previous 
administrations, our oil production has increased for the first 
time. It is at its highest level in 8 years. The import 
fraction is the highest level in 16 years.
    We think that if you consider all these policies, including 
energy efficiency, that we can go a long way to becoming less 
dependent on oil and diversifying our supply it will help the 
American economy and the American consumers.
    Mr. Nunnelee. Thank you.
    Mr. Frelinghuysen. Mr. Nunnelee, thank you for putting a 
very human face on what a lot of American families are feeling 
at the pump and with their own family budgets.
    Mr. Visclosky.
    Mr. Visclosky. Mr. Chairman, thank you. I realize we are at 
the end. I just want to highlight three issues that questions 
will be submitted for the record, Mr. Chairman, that I have a 
particular interest in.
    One is the issue of the safety culture at the waste 
treatment facility. There was a DOE Office of Health, Safety, 
and Security investigation last year and a report. Very 
concerned about that systemic problem that continues to 
persist, and I have an interest in that question.
    Relative to USEC, I realize that there was an agreement 
between the Department and USEC of $44 million relative to 
tailings as well as, in return, enrichment services. The 
question in particular I have is, what happens with the cost to 
the government long-term for those tailings? I fear it will far 
exceed the $44 million. Do the taxpayers pick that up, or does 
USEC pick up that additional liability?
    And the last question is, I realize that the administration 
is looking for transfer authority for $106 million. The 
question I would have is, where will the $106 million be 
transferred from, should the authority ever be granted?
    And I appreciate the chairman's indulgence.
    Mr. Frelinghuysen. And let me say I associate my feelings 
with Mr. Visclosky. There are a number of outstanding questions 
which we will put into the record, not the least of which is 
you still have, I think, $550 million unobligated in terms of 
the 705 stimulus loan guarantee money. Yes, I believe that is 
the amount.
    A lot of that money went out in the waning months of the 
program's authority, and you personally approved that. Can you 
give the committee some assurances that that money and the 
programs it went to had better oversight than perhaps some of 
the other programs that were initiated?
    Secretary Chu. Well, how do you want me to----
    Mr. Frelinghuysen. How would you like to characterize there 
were some lessons learned.
    Secretary Chu. Well, there are always lessons learned in 
life. And, certainly, as I noted in my Senate testimony, we are 
continuing to improve how we administer the loans. But I 
wouldn't characterize what happened at the end--we were very 
careful in how we assessed. And so I think you are talking 
about the conditional loans and that obligation.
    Mr. Frelinghuysen. Yes, and how are you monitoring.
    Secretary Chu. Right. So what we have been doing since I 
think 2010, mid-2010, is setting up a different section within 
the loan program, but also with outside eyes, within Department 
of Energy to look for changes in anything that materially 
affect the company and the environment the company is in. 
Certainly, if you look at the loan agreements that we have, 
there are very careful milestones that the company has to meet 
before the next part is meted out.
    But in addition to that, as noted in the Solyndra case, 
there was a very, very rapid change in the whole ecosystem of 
photovoltaics. The price dropped by roughly 80 percent in 3 
years, to one-quarter to one-fifth of what the solar modules 
are doing. When that happens, the good news is there is very 
rapid technology development that was occurring during that 
time and will continue to develop. The bad news is that, you 
know, not all companies are survivable.
    Mr. Frelinghuysen. Are you laying blame for that disaster 
on things that occurred in China? How about oversight of----
    Secretary Chu. I am saying that when prices vary that much 
in a commodity product, that a lot of companies can be swept up 
by that.
    Mr. Frelinghuysen. Well, that is all the more reason for 
government oversight, and----
    Secretary Chu. Exactly. I agree with you.
    Mr. Frelinghuysen [continuing]. To the point of my 
question.
    Secretary Chu. I agree completely with you.
    Mr. Frelinghuysen. So we will continue to monitor what was 
approved last year.
    Secretary Chu. Right. And as the economics and the business 
changes, if there is effectively something like that happening, 
we have to be very, very conscious of that. And we monitor 
these things very, very closely. And so----
    Mr. Frelinghuysen. Well, we are counting on you. And, 
obviously, I think a lot of the public-confidence issues that I 
mentioned in my initial opening statement rest on the type of 
assurances you are giving us this afternoon.
    This is your lucky day. This is your birthday and your 
wedding anniversary. And we have some votes, which means that 
we will not reconvene. But we have a lot of questions for the 
record, and we hope that we can get responses back in good 
order. We look forward to cooperation from your staff in that 
regard.
    And I may say for the record, if Members have any 
additional questions, they have a requisite 24 hours to get 
them in to be submitted to the Department of Energy.
    [The information follows:]
    Mr. Frelinghuysen. So, Mr. Secretary, on behalf of Mr. 
Visclosky and the committee, we thank you for your time and 
that of your staff this afternoon.
    Secretary Chu. Thank you.
    Mr. Frelinghuysen. We stand adjourned.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                          Wednesday, March 7, 2012.

 DEPARTMENT OF ENERGY--NUCLEAR ENERGY AND NUCLEAR REGULATORY COMMISSION

                               WITNESSES

DR. PETER LYONS, ASSISTANT SECRETARY, OFFICE OF NUCLEAR ENERGY, 
    DEPARTMENT OF ENERGY
GREGORY JACZKO, CHAIRMAN, NUCLEAR REGULATORY COMMISSION
    Mr. Frelinghuysen. The meeting will come to order. Good 
morning, everyone. Thank you for coming. I didn't mention it 
yesterday, but Mr. Olver substituted for Mr. Visclosky, and, 
kindly, Mr. Pastor is substituting today for my ranking member 
Pete Visclosky.
    Pete Visclosky lost his mother, age 86, yesterday, so he 
was rightfully absent to be at her side. He is one of three 
surviving sons, and I believe Mr. Visclosky, his father, is 
alive and well. And on behalf of the committee, and I am sure 
all of those who know and like Pete, who is an incredible 
Member of Congress, we extend our public sympathy to him. 
Excuse me for doing that before you, but I thought that took 
priority. So, thank you very much.
    I would like to welcome today Gregory Jaczko, Chairman of 
the Nuclear Regulatory Commission, and Peter Lyons, the 
Assistant Secretary for Nuclear Energy at the Department of 
Energy, to present the fiscal year 2012 budget request. I 
welcome you both, and we look forward to your testimonies.
    When you appeared before the committee last year, the 
nation of Japan had just been devastated by a tsunami. It was 
in the midst of a nuclear crisis. I am pleased that our Nation, 
both on the military and civilian sides, was in a position to 
provide technical and humanitarian assistance to the Japanese 
people. I would like to thank you both for the work you did to 
help the Japanese people, and other parts of our government as 
well, in their time of need. And their time of need still 
exists, and there are lessons to be learned from that tragedy.
    Although a year ago now, this tragic event and the lessons 
we are learning from it continue to shape the energy sector 
here in the United States and around the world. I hope we will 
have a chance to hear today how our nuclear sector is applying 
these lessons, and how your programs are helping in this 
regard. It is reassuring that the administration and Congress 
continue to value the role of nuclear power as a vital source 
of energy. Perhaps the strongest sign of this is in the recent 
NRC approval of the Vogtle Plants in Georgia, the first such 
approval in over three decades.
    There is now wide acceptance that nuclear power is a safe, 
critical part of our energy mix, and I should note that this 
development occurred with strong support of the Congress and 
successive administrations over the years. Unfortunately, the 
budget request for fiscal year 2013 does not build upon that 
cooperative spirit, but instead shows some degree of 
divisiveness.
    Although the President made a strong pitch in the State of 
the Union for an all-of-the-above energy strategy, there is no 
sign of such a balanced approach in the documents before us. 
Instead of investing in the two most important energy sources 
for the economic recovery of our country, nuclear and fossil, 
this budget request cuts funding for fossil by 21 percent and 
nuclear energy by 12 percent. At the same time, this request 
increases funding for energy efficiency and renewable energy by 
over $500 million. This is not what I would call an all-of-the-
above energy strategy that is balanced and recognizes what 
really underpins the real economy.
    At the same time, I regret this request continues the 
administration's wasteful and misguided Yucca Mountain policy, 
denying us an important and, I would say, long overdue 
repository for nuclear waste. Your budget request contains 
funding for projects to implement some of the Blue Ribbon 
Commission's recommendation, recommendations which Congress has 
not blessed either in whole or in part. As the current law of 
the land is for waste disposal at Yucca Mountain, we need to 
hear from you if the administration is proposing any 
legislative changes to authorize their recommendations. This is 
a too complex and important mission to be resolved unilaterally 
by the executive branch.
    I ask the witnesses please assure us that the hearing 
record, questions for the record, and any supporting 
information requested by the subcommittee are delivered in 
final form to us no later than 4 weeks from the time you 
receive them. Members who have additional questions for the 
record will have until the close of business tomorrow to 
provide them to this subcommittee office.
    With that, I turn to Mr. Pastor for any comments he may 
have.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Pastor. Thank you, Mr. Chairman.
    Good morning, Chairman Jaczko and Dr. Lyons. Good to see 
you again. Good morning, and thank you for being here and 
discussing the fiscal year 2013 budgets.
    As you know, I have long advocated for a comprehensive 
energy policy for our Nation, and believe that our current ad 
hoc policy continues to imperil our economy, our national 
security, and our environment. I also firmly believe that in 
any conceivable and practical scenario, nuclear should be 
considered as part of the Nation's energy mix for decades to 
come.
    I am convinced that the commercial nuclear energy sector in 
the United States is safe and effective. That being said, we 
must ensure that the lessons learned from last year's tragedy 
in Japan, their nuclear facility, be heeded, and we enhance the 
safety and emergency protocol at America's nuclear reactors. 
The policies of both the NRC and the Office of Nuclear Energy 
play a pivotal role in ensuring that our Nation has appropriate 
regulatory controls in place, but at the same time pursuing a 
research and development program to strengthen the nuclear 
industry.
    We also should ensure that our domestic manufacturing base 
has the fullest opportunity to provide the stability and growth 
in our nuclear industry.
    As we continue to examine the role of nuclear industry, the 
role they should play in our Nation's energy mix, we must find 
a solution to the final disposition of nuclear waste. The 
administration's termination of Yucca has only caused a higher 
level of uncertainty when it comes to this issue.
    Dr. Lyons, the Office of Nuclear Energy is tasked with the 
executing of the Department's responsibility under the Nuclear 
Waste Policy Act and would be charged with furthering any 
recommendations of the Blue Ribbon Commission that we 
collectively decide to pursue as a Nation.
    To be clear, I see the recommendations of the Blue Ribbon 
Commission as a supplement, not an alternative to Yucca. 
However, recognizing that there are actions that need to be 
taken regardless of the outcome of the debate and ongoing court 
cases on Yucca Mountain, I am interested in hearing more about 
the Department's plan in this regard.
    Mr. Chairman, the NRC has historically been seen as a 
technical regulator above the fray of politics. I fear that 
this reputation has been tarnished and believe that you have 
some work to do to regain the confidence of many on this 
subcommittee and in Congress. I look forward to an update of 
your activities in this regard, as well as a dialogue of what 
you believe we should do in the United States to implement the 
lessons learned from the disastrous events in Japan.
    Mr. Chairman, I thank you, and I yield back my time.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Frelinghuysen. Thank you, Mr. Pastor.
    Also, I would like to thank all Members. We have a pretty 
good complement here this morning. There has been a lot of 
hearings going on, and there was some fall-off yesterday, but I 
am pleased that we have pretty much a full house here this 
morning.
    Dr. Lyons, Mr. Secretary, the floor is yours. Thank you for 
being here.
    Dr. Lyons. Thank you very much. Chairman Frelinghuysen and 
members of the subcommittee, thank you for the opportunity to 
appear before you today to discuss the President's fiscal year 
2013 budget request for the Office of Nuclear Energy, or NE, at 
the Department of Energy.
    When I testified before you last year, as you noted, the 
events at Fukushima were still unfolding. That situation is now 
stable, but with a very long cleanup phase ahead. Many 
contributions from the Department were instrumental in 
assisting our Japanese colleagues.
    In the last year, my office reevaluated its R&D activities 
in light of Fukushima. Based on that review, we are 
accelerating our development of fuels with enhanced accident 
tolerance. We are using modeling and simulation to better 
understand operations in off-normal conditions, how nuclear 
plants respond to seismic events, and how reactor materials 
evolve over time. We are also enlisting the university 
community to focus on safety-related R&D projects, including 
such issues as the safe storage of used fuel. NE remains 
committed to ensuring that our Nation's options for safe 
nuclear power remain open.
    Domestically this has been an historic year for nuclear 
energy. Late last year the Westinghouse AP1000 passively safe 
reactor received design certification from the NRC. The NP 2010 
program, which was supported strongly by this committee, was 
instrumental in achieving this success.
    Then on February 9th, the NRC approved the combined 
construction and operating license for two AP1000 reactors at 
the Vogtle nuclear plant. That vote authorized construction of 
the Nation's first new nuclear reactor since 1978. With 
construction of two units at Vogtle, the anticipated two units 
at Summer, and four units in China, literally tens of thousands 
of U.S. workers will be supporting AP1000 construction 
projects. As Secretary Chu noted at Vogtle three weeks ago, the 
resurgence of nuclear energy starts here in Georgia.
    With the support of Congress, the Department has also taken 
the first steps to accelerate commercialization of small 
modular reactors, or SMRs. In my view, SMRs could enable a new 
paradigm for small nuclear power plants. On January 20, NE 
released a draft Funding Opportunity Announcement soliciting 
input from industry toward establishing cost-shared agreements 
to support design certification and licensing. The Department 
is currently reviewing the comments on that draft and will 
issue the final procurement very soon.
    On January 26th, the Blue Ribbon Commission released its 
final report providing recommendations for managing the back 
end of the nuclear fuel cycle. The administration commends the 
Commission for its work over the past 2 years. Secretary Chu 
has created an internal task force that I lead to assess the 
Commission's recommendations and develop a strategy that builds 
off of their work. The administration will work with Congress 
to define a responsible and achievable path forward to manage 
our Nation's used nuclear fuel and nuclear waste.
    And last, November 26th, the Mars Science Lab lifted off 
from Cape Canaveral, carrying a Radioisotope Thermal Generator 
to power the Curiosity rover. That event marked the 50th 
anniversary of the use of nuclear power in space exploration.
    As the President emphasized in his State of the Union 
Address, this country needs an all-out, all-of-the-above 
strategy that develops every available source of American 
energy. And as Secretary Chu stated during his recent trip to 
Vogtle, nuclear energy is a critical part of President Obama's 
all-of-the-above strategy. Nuclear energy currently supplies 
over 70 percent of our Nation's carbon-free electricity and 
will continue to play an integral role in our Nation's energy 
mix. My office will continue to explore the avenues that offer 
the highest probability for nuclear power to fulfill this role.
    The President's fiscal year 2013 budget requests $770 
million for the Office of Nuclear Energy. That is a 10 percent 
decrease from the fiscal year 2012 appropriation. Of that 
total, $314 million is for research, development and 
demonstration. The decrease in those areas is about 17 percent. 
This austere budget required extremely careful prioritization 
and some very tough decisions on very important programs.
    I look forward to your questions.
    Mr. Frelinghuysen. Thank you, Mr. Secretary.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. Mr. Jaczko.
    Mr. Jaczko. Thank you.
    Mr. Frelinghuysen. Thank you for being here.
    Mr. Jaczko. Thank you. And I would like to say on behalf of 
the agency to offer my sympathies and the agency's sympathies 
to Congressman Visclosky as well.
    Mr. Chairman, Ranking Member Pastor, and members of the 
subcommittee, I am honored to appear before you today to 
discuss the fiscal year 2013 budget request for the U.S. 
Nuclear Regulatory Commission. As you know, the NRC is an 
independent Federal agency established to license and regulate 
the Nation's civilian use of byproduct, source, and special 
nuclear materials to ensure adequate protection of public 
health and safety, promote the common defense and security, and 
protect the environment. We have formulated our fiscal year 
2013 budget to support the agency's safety and security 
strategic goals and outcomes.
    The NRC's safety goal is to assure adequate protection of 
public health and safety and the environment. Our safety 
program outcomes are to prevent the occurrence of any nuclear 
reactor accident, inadvertent criticality events, acute 
radiation exposures, or significant releases of radioactive 
materials. The security goal is to ensure the secure use and 
management of radioactive materials with outcomes of preventing 
any instances where licensed radioactive materials are used in 
a malicious manner, and to thwart attempts to sabotage licensed 
facilities and divert special nuclear material.
    In fulfilling its responsibilities for the protection of 
public health and safety, the NRC develops regulations and 
guidance for applicants and licensees; licenses or certifies 
applicants to use nuclear materials, operate nuclear 
facilities, and decommission facilities. And we inspect and 
assess licensee operations and facilities to ensure that they 
comply with NRC requirements, taking appropriate follow-up or 
enforcement actions when necessary.
    I am very, very proud that once again the NRC scored among 
the top tier of Federal agencies in the 2011 Best Places to 
Work in the Federal Government rankings, and this was in a year 
in which we had a number of significant challenges. As many of 
you have mentioned, the Fukushima accident was a significant 
challenge for the agency, as well as multiple natural disasters 
in the United States, including flooding in the Midwest in 
June, and the earthquake on the east coast in August, and other 
serious natural hazards such as hurricanes and tornados which 
had an impact on nuclear facilities. Given those challenges it 
was a particularly significant recognition for the agency, and 
I am extremely proud of the outstanding job that the NRC staff 
has done and continues to do to fulfill our important health 
and safety mission.
    The agency's focus on improved budget execution strategy 
has resulted in a significant decrease in our unobligated 
carryover. Between fiscal years 2009 and 2011, the NRC has 
reduced total unobligated carryover by 45 percent, from 71 
million in fiscal year 2009 to 32 million in fiscal year 2011. 
We are down to a level now of approximately 3 percent of the 
agency's total annual appropriation.
    The NRC's fiscal year 2013 budget request provides the 
necessary resources for our Nuclear Reactor Safety and Nuclear 
Materials and Waste Safety Programs to carry on our mission on 
behalf of the American people. The NRC's proposed budget in 
fiscal year 2013 is approximately $1.050 billion, including 
nearly 4,000 full-time equivalents. And this is approximately 
an increase of $15 million over our fiscal year 2012 enacted 
budget and a decrease of 25 full-time equivalents. I am pleased 
to say that this reduction in staffing was primarily the result 
of the agency's focus on improving our efficiencies in 
administrative support areas and enhancing efficiencies and 
effectiveness.
    Also included in our budget is the Office of Inspector 
General's component, which is a proposed budget of $11 million. 
This includes resources to carry out the IG's mission to 
independently and objectively conduct audits and investigations 
to ensure the efficiency and integrity of NRC programs and 
operations and to promote cost-effective management.
    In accordance with the Omnibus Budget Reconciliation Act of 
1990, the NRC's budget request provides for 90 percent fee 
recovery in general, less amounts appropriated for waste 
incidental reprocessing activities and generic homeland 
security activities. So accordingly, $925 million of the fiscal 
year 2013 budget will be recovered from fees assessed to NRC 
licensees. This results in a net appropriation of $129 million, 
which is approximately the same as our fiscal year 2012 enacted 
budget. Consistent with OMB's guidance, the NRC's budget 
request also includes a 0.5 percent pay raise for our staff.
    So, Mr. Chairman, Ranking Member, and members of the 
subcommittee, this concludes my formal testimony, and I look 
forward to answering any questions that you may have. Thank 
you.
    Mr. Frelinghuysen. Okay. Thank you, Mr. Jaczko.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. Mr. Secretary, you have made, obviously, 
some very supportive comments about nuclear energy. The 
President has, Secretary Chu has, but there seems to be quite a 
gap between rhetorical support and support as reflected in your 
budget. You have reduced funding for the nuclear energy 
research programs by 12 percent, $95 million. Tell us about 
that reduction.
    Dr. Lyons. Well, I believe, as I indicated in my remarks, 
Mr. Frelinghuysen, the Office of Nuclear Energy was assigned a 
very austere target for its budget for fiscal year 2013. We 
have made very difficult prioritization decisions to stay 
within that budget. I have placed particular emphasis on 
maintaining progress towards small modular reactors----
    Mr. Frelinghuysen. We are going to talk about that.
    Dr. Lyons [continuing]. Continuing progress in areas of 
used fuel disposition, and continuing work on enhanced 
accident-tolerant fuels. There are several other areas like the 
Hub that we have also worked very hard to keep as well funded 
as possible. But it has definitely led to very severe 
prioritization decisions and reductions in a number of areas.
    Mr. Frelinghuysen. So indeed, the rhetoric which is 
positive, which I share in support for more nuclear power for 
our country, is not being met by your budget submission. And if 
we were to provide you with some additional dollars, how would 
you use them?
    Dr. Lyons. I would be happy to provide for the record a set 
of suggestions based on any increment that you might request 
that we explore, sir.
    Mr. Frelinghuysen. Mr. Secretary, clearly some of the 
programs proposed by your Department in recent years support, 
obviously, our American manufacturing in the nuclear sector. 
The Small Modular Reactor Program, for example, which you have 
mentioned and you and I have discussed, is important for this 
and for other reasons as the smaller reactor vessels would 
allow much more of the reactor components to be made here at 
home.
    At the same time, the budget request reduces funding for 
the 1-year-old Cross-Cutting Technology Development Research 
Program, claiming that the reduction partly, quote, ``reflects 
no new investments in the areas of manufacturing methods due to 
reprioritization,'' unquote.
    Dr. Lyons. Again, that was part of a very difficult budget 
decision. We will have work continuing in advanced 
manufacturing that will be funded in fiscal year 2012 and will 
continue in fiscal year 2013, and some of the university 
programs which we typically support in 3-year blocks, those 
will be continuing. But you have highlighted some of the very 
difficult prioritization decisions that I had to make.
    Mr. Frelinghuysen. You are supportive of the small modular 
nuclear reactors. There is a degree of excitement, and you have 
been identified with your oversight and your enthusiasm for 
that program.
    Dr. Lyons. Absolutely, sir, and certainly I did my best to 
maintain that as high as I could.
    Mr. Frelinghuysen. And so does the budget submission you 
have given to us diminish the ability of moving ahead with that 
program? And this is about jobs. There is an incredible amount 
of excitement about our retaining our competitive edge here.
    Dr. Lyons. I share your enthusiasm for the small modular 
reactors, and you and I certainly discussed that. I think they 
may be an entirely new paradigm in how we look at nuclear power 
and are very, very important.
    There has been considerable discussion now, I know it is 
referenced in congressional reports, in OMB language, that we 
are aiming for a $452 million Federal support for SMRs over 5 
years. Yes, I am concerned when the first 2 years are $67- and 
$65 million.
    Mr. Frelinghuysen. Mr. Pastor.
    Mr. Pastor. One of the issues that you started with, Dr. 
Lyons, is the Hub, and I am trying to recall. Initial funding 
was what, about 3 years ago?
    Dr. Lyons. The hub has been in operation for about a year 
and a half, actually, since it was awarded.
    Mr. Pastor. Well, but I think the initial funding was about 
3 years ago, wasn't it?
    Dr. Lyons. Initially, yes.
    Mr. Pastor. And it took about a year and a half to get it 
going.
    Dr. Lyons. It took about a year to get it going.
    Mr. Pastor. A year to get it going. And what is the status 
of it right now?
    Dr. Lyons. I would be extremely complimentary of the 
progress of the Hub. It is, as you know, based at Oak Ridge, 
but it involves a number of other institutions that are 
supporting: universities, labs, and industry; TVA; 
Westinghouse; MIT; Idaho National Lab. There is quite a wide 
range of entities working with Oak Ridge National Lab. Their 
focus is on developing a so-called virtual reactor; a very 
complete simulation, end to end, of an operating reactor, using 
the best current codes and the most modern, high-performance 
computing. I think it offers the potential to not only 
significantly improve safety of operating reactors, but to 
provide a better mechanism for evaluating certainly off-normal 
operations, but also any possible upgrades. It should play an 
important role in looking at some of the questions that will 
come in with possible license extensions. I see the Hub as 
being on a very solid track doing excellent work in its short 
existence.
    Mr. Pastor. You probably have some reasons to be very 
complimentary. Can you explain some of those reasons? What are 
some of the benchmarks that they have reached, and why do you 
feel that it has been slow in coming, at least in my belief. 
Maybe you can update why you are complimentary and you feel 
like we are moving ahead.
    Dr. Lyons. They took on a very difficult challenge, sir, in 
terms of really trying to introduce modern computational tools 
to the existing nuclear power industry. They claim their goal, 
which they met, was to have the initial release of their so-
called VERA code, their virtual reactor code, within the first 
year, and they met that goal, and they will continue to enhance 
that code substantially over the years.
    I guess one of the reasons why I would be particularly 
complimentary is the extent to which industry is integrated 
with the Hub, and helping to define the problems on which they 
are focusing. When Secretary Chu visited the Hub, I guess it 
was 3 weeks ago, the same day that we went to Vogtle, he and I 
were both impressed that TVA and Westinghouse folks from the 
industry played a significant role in the presentations and in 
discussing how the codes being developed could help them 
improve the operation of existing reactors; things like trying 
to reduce the already very low probability of failure of a fuel 
pin. And I could talk to some of the mechanisms that are being 
explored to try to further reduce or further improve the 
integrity of fuel pins in modern reactors.
    Mr. Pastor. I believe that--and Senator Bennet was a big 
proponent of this--in fact, I think that is why this thing got 
funded. Senator Bennet has been gone at least 2 years, but I 
think one of the requirements at the time in funding these Hubs 
was that there would be annual reports.
    Dr. Lyons. Oh, there are.
    Mr. Pastor. And have they submitted an annual report, or 
where are we at on that? You had informal reports, but I think 
the legislation required more formal reports so we could keep 
at least abreast of how these Hubs were doing, and how they 
were achieving their objectives.
    One of the reasons that we were funding these Hubs was we 
thought that this subcommittee was going to get on a yearly 
basis information of how the different benchmarks--well, what 
were the benchmarks, and then how they were being met, so then 
we could determine future funding or what was appropriate for 
the cycle. And I appreciate informal reports, but I think----
    Mr. Frelinghuysen. If the gentleman will yield, we will 
request formal reports through you, Mr. Lyons.
    Dr. Lyons. I would be happy to provide that.
    Mr. Frelinghuysen. Would you do that?
    Dr. Lyons. Yes, sir.
    Mr. Frelinghuysen. And while you are doing that, would you 
also provide for the record your suggestions on how to spend an 
additional $50- to $100 million if we were to get more money 
into the nuclear energy programs for the record?
    Dr. Lyons. Yes, sir.
    Mr. Frelinghuysen. Mr. Pastor, I am going to go to Mr. 
Simpson, if there is an opportunity.
    Mr. Pastor. I am finea with that, Mr. Chairman.
    Mr. Frelinghuysen. Mr. Simpson.
    Mr. Simpson. Thank you, Mr. Chairman.
    Just out of curiosity, if you submit answers to a request 
that you tell us how you would spend another $50- to $100 
million, does that answer have to go through OMB?
    Dr. Lyons. It would represent an administration response, 
sir, so yes. It would represent the overall administration 
response.
    Mr. Simpson. I am disappointed in the budget overall, not 
necessarily how you allocated the money, but the request, and 
as you said, it was a very low allocation request that you had 
to work with OMB. Somehow, I would like to know what NE would 
do with their priorities; what their priorities are in doing 
this, not necessarily filtered through OMB. I know that is an 
impossible task to ask you to do, but we need to know that. If 
we were able to come up with the additional $50- to $100 
million, where would the experts in nuclear energy like to see 
that money put? And we will have these discussions as we go 
along, I am sure, in developing this budget.
    But as I said, I am somewhat disappointed in the overall 
budget request, as was mentioned by you and by the chairman. NE 
is down, what, 30 percent for the reactor concepts, R&D was 
decreased by 36 percent. Much of that was out of NGNP. If you 
ignore NGNP, the rest of the reactor concepts funding decreased 
by 30 percent. There is a 3 percent decrease in SMR licensing 
support, which bothers me in that, as I have said many times, 
over the 14 years I have been here, we keep heading down 
different paths, and I thought we had decided on SMRs as the 
direction we were going to go. Now I am seeing a decrease in 
SMR funding. Wouldn't it be better if we had a steady budget 
for SMRs?
    Dr. Lyons. As I indicated, Mr. Simpson, SMRs are a high 
priority, and within the austere budget with which we worked, 
we tried to protect it as much as we possibly could.
    Mr. Simpson. Would that be one area you would put 
additional money into? I am trying to get back to it. I won't 
put you on that spot.
    Let me ask you another question. Last year we included 
report language that recommended that you compete 10 percent of 
your budget between industry, universities and labs. I know you 
have extensive programs working with industry, universities and 
labs. Can you tell me how you approached the decision of where 
to spend your money, and how does this impact your mission?
    Dr. Lyons. Mr. Simpson, we try for each of our programs to 
carefully evaluate which entity, university, lab, or industry, 
would be the optimum provider. Frankly, I am quite proud of the 
job we have done, and I think it is quite defensible. I have 
asked our staff to pull together some numbers. For example, in 
fiscal year 2011, out of our total of somewhat over $800 
million, $170 million total went to industry, and the majority 
of that was directly competed within industry.
    If I look at fiscal year 2012, of course we are continuing 
our large support for university programs on the order of 20 
percent of our budget. We are looking at the SMR licensing 
program, $67 million, which will be entirely industry. We just 
recently announced a $10 million competition which was among 
all three entities for advanced materials and advanced 
manufacturing.
    Just in general, sir, in each case as we look at a project, 
we try to understand the best provider for that service, and in 
general we will go directly to that entity and, in some cases, 
we will compete among two or three of the different entities.
    Mr. Simpson. Along that line, the Integrated University 
Program at NE was not in the budget again this year. This is 
kind of a recurring theme where you don't request it, yet, we 
put it in. What is the status on that? Do you think this is a 
valuable program, and was it just the budget numbers that 
required that you drop that out?
    Dr. Lyons. Mr. Simpson, I have testified in strong support 
of this program many times in the past, especially when I was 
at the NRC. I think my interest in this program has been well 
demonstrated. The statement from the administration is that 
they have confidence that the nuclear industry, as it expands, 
will create incentives for students to enter nuclear-related 
programs, and that was the basis for that being zeroed in the 
administration's request.
    Mr. Simpson. Last year I supported efforts in Congress to 
increase funding for industry cost-shared programs to help 
extend the life of the current fleet of reactors. I think we 
need to keep the current fleet of reactors going. What are your 
thoughts on this, and is that a valuable program?
    Dr. Lyons. The Light Water Reactor Sustainability Program, 
I believe, is an extremely valuable program in which we are 
trying to understand what may be the lifetime limiting 
components of the existing reactors, as well as understanding 
what can be done in terms of improvements to safety at the same 
time that we try to understand any potential lifetime limits.
    That is a cost-shared program very closely coordinated with 
EPRI. In my view, it is an extremely important program and 
provides important information to certainly the industry, but 
also the American public as they look towards potential 
extensions, decisions that will be made eventually by the NRC--
well, first by utilities, whether they applied to the NRC, and 
then by the NRC--as to whether they will enable license 
extensions beyond the current 60 years that many plants now 
enjoy.
    I believe it is a very important program, and that is 
another program where, again, in an austere budget, we tried to 
keep that as high as possible. It did suffer a small decrease.
    Mr. Simpson. Thank you. I will wait for the next round.
    Mr. Womack [presiding]. Thank you, Mr. Simpson.
    Let's go to Mr. Fattah.
    Mr. Fattah. Thank you very much. I don't want to step on 
the lead here.
    So the first thing is that after 30 years, the country now 
has begun the process of adding to our nuclear power plant 
inventory through the great work of the Department and this 
administration, and I want to commend you for that. I have been 
a major proponent of the loan guarantee efforts, and I don't 
know how we could say anything other than that after 30 years 
of rhetoric, we now have gotten to the point where we are 
actually proceeding again. Because as you point out, over 70 
percent of the carbon-free energy produced is produced through 
nuclear. And so I am very pleased with that.
    I was at the Department of Energy Innovation Summit last 
week with some 2,500 very excited people, because a lot is 
going on. In fact, I think in today's paper there is a major 
new development out, a company out of Newark, funded by the 
Department, that has come up with a battery that can operate 
for a very long time. So there is a lot to talk about.
    I want to talk about the budget because there has been from 
the majority indications that they want to invest more money, 
and I am for that. That is why I think we ought to be doing it 
as a country, but the budget as submitted from the 
administration, as I understand it, is limited by the agreement 
that was embodied in the debt limit increase bill. There was an 
agreement about the level of the budget. And in today's Roll 
Call, there is a headline that says that the majority actually 
wants to go from that number to a lower number, in terms of 
moving the GOP budget. So I am trying to figure out how we 
invest more if, on the other hand, we are saying that the 
budget has got to be less and less.
    Moreover I saw that the European Energy Alliance is now, 
because of some of the work of the Department of Energy, 
getting a little concerned, and they want to invest in some of 
these alternative energy technologies, and try to compete with 
us. They have set a goal of 2030 to try to compete on a range 
of these issues that the Department has been at the forefront.
    I am a big supporter of your work, and I see that you have 
appropriately budgeted for small modular units, and I think 
that we need to continue to explore in that area what we can 
do. But we can't spend money unless the Congress appropriates 
the money. If the Congress in the debt limit reduction bill set 
a limit, and the administration submitted a budget within the 
construct of that, and at the same time the Congress is now 
saying we want to go lower than that limit, it is hard to 
imagine how we can do that and still at the same time argue 
that we need to be investing more.
    Now, I happen to be of the belief that we should make 
significant investments in renewables. The largest wind farm is 
in Honduras, I think it should be here in the United States. It 
doesn't make sense to me. I also think there is work to be done 
in geothermal, but clearly one of the major areas for us to 
work on is in the nuclear energy. And I think that we all, as a 
committee, are in agreement that we have to do something about 
the spent fuel.
    In the area of nuclear safety, I know the NRC has been 
looking at this question of dry cask versus cooling pools. It 
may not be the technical term, but it seems to me that, at 
least awaiting whatever the eventual decisions are related to 
Yucca Mountain, that maybe we need to be moving to at least 
think about a requirement on dry cask.
    Thank you for your testimony. I would be very interested in 
you talking to us about where we can make some disruptive 
investments in nuclear beyond what is on the table now; What 
you think we ought to be considering as we think about the 
world that we are going to be competing in. I mean, the AP1000 
is great, and so is the small modular. But are there things 
beyond these technologies that the committee ought to be 
thinking about long term?
    Mr. Womack. Mr. Fattah, you have been very successful in 
taking all of your 5 minutes with that question. But----
    Mr. Fattah. I have had some practice at this.
    Mr. Womack. Since I gave my colleague to my left an extra 
minute-and-a-half or so, I will give you the same.
    Dr. Lyons. Well, thank you for your comments, sir. Some of 
the areas that I have mentioned in my testimony or in some of 
the previous responses would certainly show areas where I think 
there is significant opportunity for significant advances. You 
have mentioned the SMRs. I could not agree with you more.
    I mentioned that one of the areas that I also focused on in 
the fiscal year 2013 budget is the program on enhanced accident 
tolerance for fuels for the existing fleet of reactors. That 
will be quite a challenge, and it remains to be seen exactly 
how much can be accomplished.
    But there are some very, very good ideas within all three 
communities, laboratory, university, and industry, that could, 
over a period of time, lead to still further enhancements in 
accident tolerance fuels. And I mentioned that we are 
continuing very important work, generic, non-site-specific 
work, in use field disposition. Those are all areas that are 
important. I could certainly list more.
    Mr. Fattah. No, if you could just comment on the dry cask 
versus the spent.
    Dr. Lyons. Well, let me only note there--a lot of that 
responsibility falls with the NRC, but one of the areas that we 
are trying to assist the country and the NRC is in a research 
program to better understand what potential degradation 
mechanisms might limit the long-term use of dry casks. This is 
of interest to us. It is of interest to the NRC. We have 
created a university-led consortium led by Texas A&M with a 
number of other universities that have a specific charter in 
this area and will be investing more research to try to better 
understand what, if anything, limits the long-term use of dry 
casks.
    Mr. Fattah. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Womack. Chairman Jaczko, again, thank you to both 
gentlemen for your service to our Nation in this area.
    Mr. Chairman, on February 9th, the Commission voted to 
approve construction of the Vogtle reactor. You voted against 
approval of the license, saying that you couldn't support the 
license without a binding agreement on the licensee and its 
partners. Do you currently have such binding agreements with 
other nuclear facilities across the country?
    Mr. Jaczko. I am sorry, binding agreements to----
    Mr. Womack. Binding agreements that would require the 
operation of those reactors with the safety enhancements 
recommended by the NRC after Fukushima.
    Mr. Jaczko. Well, the Commission is in the process of 
determining what specific commitments we would have applied to 
any reactors in this country.
    Mr. Womack. So the NRC has the authority to impose such 
binding agreements on existing reactors?
    Mr. Jaczko. Yes, we do.
    Mr. Womack. Okay. Then here is where I see somewhat of a 
conflict. You would seem to imply that this new reactor is 
perhaps not safe enough to operate. Does it also mean that you 
think the current fleet of reactors should be shut down until 
the NRC's recommendations following Fukushima are implemented?
    Mr. Jaczko. I would say that the license that was in front 
of us was for a new reactor at the Vogtle site. At the same 
time we were dealing with that, the Commission was very near to 
making some decisions about the initial recommendations for 
complying with the lessons learned from the Japan event.
    I think a new licensee is very different from an old, or an 
existing licensee, in terms of our expectations. In fact, the 
Commission has a long-standing policy statement that for the 
new generation of reactors--it is called our Advanced Reactor 
Policy Statement--we have expectations that the new reactors 
would effectively be inherently safer, look for inherently 
safer approaches to dealing with different types of phenomenon. 
It is partially one of the reasons for the interest in passive 
reactor technology, which the AP1000 embodies.
    So I think the AP1000, in my view, to provide some degree 
of certainty about how these issues will be dealt with going 
forward, needed a license condition essentially to commit them 
to whatever comes out of our review of the Fukushima events.
    I would say it is going to be very difficult for us in the 
next probably year or so as the new reactor licensing work 
continues, and at the same time, we have more and more 
information coming out about--about what we do on Fukushima. It 
is going to be very difficult if at each step with each reactor 
we are having to come up with some kind of special--special 
approach and special way to deal with it. In fact, right now 
there is a potential for having a significant delay in 
determinations about one reactor license because now there is 
some interest on the part of the staff to actually require them 
to address some Fukushima issues before we move forward with 
the license.
    So I don't think right now we have a consistent way to deal 
with it. I think the approach that I laid out would have 
actually provided a very consistent approach for dealing with 
new reactors. It would have given a clear commitment with the 
understanding in that before they operated, they would be in 
compliance with the Fukushima lessons learned, but would have 
done it in a generic way that would allow us to continue with 
the Fukushima work and continue with the licensing work. I am a 
little bit worried that as we go forward, that is going to be a 
little more complicated without that kind of a condition.
    Mr. Womack. All right. So let me ask that question again in 
a little plainer English. Was it your opinion that the 
operation of the existing fleet of nuclear reactors in the 
country should have been shut down pending recommendations 
post-Fukushima?
    Mr. Jaczko. Right. We did not have sufficient information 
that would suggest that reactors should be shut down. I think 
the task force that we established made that recommendation. 
None of the issues that we saw were of imminent safety concern. 
They do continue to be low-probability events. So I would say 
there was not sufficient information that would warrant taking 
any action like shutting down any reactors.
    Mr. Womack. What was your opinion, your personal opinion?
    Mr. Jaczko. That was my personal opinion. I mean, it was 
the opinion of the Commission, but it is one that I share.
    Mr. Womack. How long would you have waited before approving 
Vogtle?
    Mr. Jaczko. I am sorry, I am not sure I understand the 
question.
    Mr. Womack. Well, if there is any kind of delay at all in 
Vogtle, given the fact that there was construction, permanent 
jobs that would have been deferred, things putting completion 
at risk, ceding the nuclear industry to overseas companies that 
are manufacturing this sort of thing, would you have had any 
delay in Vogtle?
    Mr. Jaczko. Well, no. Actually what I was proposing was a 
license condition so that we didn't have to have any delay. It 
was actually to prevent any delay, and to prevent, quite 
frankly, I think, any questions about how Vogtle will actually 
deal with Fukushima events.
    I continue to believe that it was actually the commonsense 
way to do this. You know, I think if we had information that, 
you know, suggested that, you know, air bags would be a good 
thing to have on cars, you know, at the time that people were 
talking about that, we would expect new cars that are being 
built on the assembly line to start putting air bags in those 
cars. We wouldn't necessarily, you know, go forward blindly, 
and say, well, we will put those in later. That doesn't mean 
that we would take all of the cars that are on the road off the 
road because they don't have air bags.
    So I think it is much the same analogy, and, as I said, it 
is very consistent with the Commission's own policy 
expectations that newer reactors will be looking for enhanced 
safety features, and, in fact, at least on paper, the new 
reactor designs do demonstrate that their risk levels for the 
kinds of things we measure are generally lower than what we see 
with the current fleet. So I think that has always been the 
Commission's expectations that we want to see designs that are 
inherently more safe.
    Mr. Womack. Okay. And finally, just a general comment, I 
have got a couple of nuclear plants in my district, and from 
time to time the subject comes up, particularly in the post-
Fukushima era. The question is are our nuclear reactors safe? 
And I have, somewhat in a joking way, said--ours sits on Lake 
Dardanelle on the Arkansas River, and realizing the gravity of 
the tsunami with Fukushima, I have said to people, I am less 
concerned about a tsunami on Lake Dardanelle as some 
aggravating circumstance on a nuclear problem there. But 
generally, if you were me, what do you say to your 
constituency?
    Mr. Jaczko. Yeah, I mean, I indicate to people that we have 
a very robust oversight program. Right now the majority of 
operating--well, I would say all of the operating reactors in 
this country are deemed to be safe. We have one plant that is 
in a more degraded condition, I would say, and as a result, we 
have put in place a regulatory practice that we haven't used in 
a long time, something we call Manual Chapter 0350. I know we 
don't often speak well in English, but that says that we have 
some current concerns about that plant restarting. It is 
currently a plant that is shut down, so that plant we do have 
some concerns with it operating until it makes a number of 
improvements and enhancement.
    But otherwise, for the other reactors that are out there, 
they certainly are safe to operate, and they may have some 
degree of issues and things that we need to address, and we are 
working to address those with those plants. But with the 
exception of that one, I would say yeah.
    Mr. Womack. Thank you.
    Mr. Olver.
    Mr. Olver. Thank you, Mr. Chairman.
    Dr. Lyons, I think you are quite correct that this is an 
austere budget. I think that, under the circumstances, you have 
probably done as well as you could have done.
    I have a number of questions. I hope that they will be 
possible to answer them, if I phrase them correctly. Shortly, 
you know, because we have very short periods of time to ask our 
questions.
    The Vogtle plants, the two units that have been approved, 
what is their rated capacity?
    Dr. Lyons. About 1,100 watts each--I am sorry, 1,100 
megawatts each.
    Mr. Olver. Eleven hundred megawatts each.
    Mr. Jaczko. That would be expensive.
    Dr. Lyons. Greg may know the precise number.
    Mr. Olver. Is that the basic upper limit of what we are 
doing, the 100 or so--do we have any that are larger than that? 
Do we have anything of nuclear power that is as large as 1,500 
megawatts, or is that 1,100 roughly the largest?
    Dr. Lyons. The operating plants in this country, I am not 
positive, sir. I think there are a couple that are somewhat 
larger. Certainly, in new plant designs, they go substantially 
above 1,100, but they are not passively safe plants.
    Mr. Olver. Okay. All right. Did you say in your testimony 
that you are expecting approval for another couple of plants of 
similar size? Is that in the summer or somewhere later this 
year?
    Dr. Lyons. Of course, that is an NRC issue. There has been 
at least discussion that they are moving ahead on the Summer 
plant, but I don't know the exact schedule.
    Mr. Olver. So you think that there are a couple that might 
come to licensure later in the year of a similar size?
    Dr. Lyons. Well, that is my understanding, but that would 
be an NRC decision.
    Mr. Olver. Okay. Yeah, well, whatever decision they will 
make, I don't wish to enter into their procedures there.
    What is the rated size of the Westinghouse AP1000?
    Dr. Lyons. I am sorry, the AP1000----
    Mr. Olver. The Westinghouse AP1000, what is the rated power 
of the----
    Dr. Lyons. It is right around 1,100 sir, also.
    Mr. Olver. It is also----
    Dr. Lyons. I thought that is the question you asked before. 
The AP1000 is about 1,100.
    Mr. Olver. Well, is it an AP1000 that is going to be used 
in the Vogtle plants?
    Dr. Lyons. Yes, sir.
    Mr. Olver. Oh, it is. Has it been used before, or is this 
the first time--that design has been approved?
    Dr. Lyons. It is not operating anywhere in the world today; 
however, there are in China----
    Mr. Olver. It is that design that is going to be used.
    Dr. Lyons. Yes, sir, four in this country, four in China 
that are at least 2 years ahead in construction that should be 
operating in 2014 in China.
    Mr. Olver. Okay. I was wondering whether this was sort of a 
generic design that was variable so that you could do it at 600 
megawatts or 1,100 megawatts or something by a simple--a simple 
translation.
    Dr. Lyons. The original Westinghouse design was the AP600, 
and it was about 600. That was a passively safe unit.
    Mr. Olver. That was a pure guess. That was straight off the 
top of the head.
    Dr. Lyons. It was a good guess. The AP1000 is currently 
certified.
    Mr. Olver. So if they wanted to do a 600, would they have 
to have that separately certified?
    Dr. Lyons. Oh, yes.
    Mr. Olver. Okay. So we now have this design that we can use 
for 1,100 megawatts.
    Dr. Lyons. Certainly the focus----
    Mr. Olver. It is a new design. It has been approved, and it 
is about to go into construction in Georgia.
    Dr. Lyons. The key point I would make, sir, is that the 
AP1000 is a certified design. The AP600 was also certified, I 
believe, in the 1990s, but never built.
    Mr. Olver. Never built. Okay. It still is certified if they 
wanted to build it.
    Dr. Lyons. Except that there have been additional 
requirements added since it was certified. If someone wanted to 
build an AP600, they would certainly have to change that design 
in order to meet the current guidelines of the NRC. But I am 
really----
    Mr. Olver. Okay.
    Mr. Jaczko. You are doing a good job.
    Mr. Olver. I am asking simple questions that you could 
almost answer like yes or no, I think. I am trying to get some 
others in here.
    You seem to be the father of the SMR program. What is the 
range of sizes that you consider to be small SMRs?
    Dr. Lyons. We have generally suggested that it be below 300 
megawatts, but I think that the most important statement is 
that it be suitable for factory construction and available to 
transport essentially assembled to a site. The key point is 
take advantage of factory, quantity, hopefully high-quality, 
construction as opposed to job-built on the site.
    Mr. Olver. Could you actually do a 300-megawatt plant in 
factory and move it in pieces? How would you move it?
    Dr. Lyons. The designs that have been proposed, and there 
is quite a number of proposed designs, I believe the largest 
one is the Westinghouse. It is slightly over 200 megawatts. The 
smallest ones are very small.
    Mr. Olver. So we are still in the process of coming up with 
the actual designs that will fit into this under 300 megawatts.
    Dr. Lyons. Yes.
    Mr. Olver. If you had a 300-megawatt plant, what would be 
roughly the size of the metropolitan area, or labor market area 
or what, where you would be able to provide the power necessary 
for its population for residential, commercial, and the 
industrial, average kind of usages?
    Dr. Lyons. If I am recalling the conversions correctly, it 
would be between 200,000, and 300,000 people at 300 megawatts.
    Mr. Olver. Okay. Okay.
    Dr. Lyons. If that is a vital number, I would like to give 
it to you for the record, but I think that is close.
    Mr. Olver. Well, no, I am looking for relativities. If I 
calculate that, your two plants in Georgia would take care of 
almost any 1 of the 50--well, at least those that are roughly a 
million population and something, but those are not small 
plants. You are talking about really dispersing.
    In your goals, is there a specific number of plants? I have 
heard numbers like 100 plants to be dispersed in various 
places. Do you have a goal for how many of these SMRs you might 
want to see in place in a 10-year period?
    Dr. Lyons. I view my goal for the moment as getting it 
through design certification. I would hope then that there 
would be enough interest in industry, perhaps within the 
government, to encourage enough construction that utilities 
would be interested in ordering enough units that it becomes 
cost-effective to use the factory fabrication. You can easily 
imagine that for the first unit or two; it makes no sense to 
build a factory to build one or two units.
    The benefits of the SMRs will come first when they go 
through design certification, which is up to the NRC; second, 
when they begin to be deployed; and hopefully in enough 
quantity that the factory construction benefits can be 
demonstrated.
    Mr. Olver. Our whole industrial revolution started to grow 
when we finally figured out how to make universally replaceable 
parts. And so the concept here is to build factories that are 
going to build the whole nuclear plant and sort of plop down 
wherever you want it, and build a lot of them.
    I will come back.
    Mr. Womack. All right. Thank you, Mr. Olver.
    The gentleman from Mississippi, Mr. Nunnelee.
    Mr. Nunnelee. Thank you.
    Thank you, Mr. Chairman.
    Mr. Womack. You can use both microphones, if you want to be 
heard in stereo.
    Mr. Nunnelee. Mr. Chairman, first of all, I want to commend 
the Commission for bringing to completion the Vogtle 
application. But I also have interest in my State. I understand 
there was a recently submitted application for Grand Gulf.
    But I am more interested in the process. It is my 
understanding that in the testimony you gave before the Senate 
and follow-up press interviews you were quoted as saying that 
limited staffing at the United States Nuclear Regulatory 
Commission may delay the agency in renewing licenses for 
existing nuclear power plants, and another quote says there are 
resource limitations.
    So I guess, to start with, does this 2013 budget request 
include adequate resources for you to continue to review 
license renewals as well as new construction?
    Mr. Jaczko. Yes, did you say limited or appropriate?
    Mr. Nunnelee. No. Does this allow you the resources to 
review the license renewals as well as new construction and 
operating licenses?
    Mr. Jaczko. Yes.
    Mr. Nunnelee. You can get the job done?
    Mr. Jaczko. Yes.
    Mr. Nunnelee. It is my understanding that your published 
milestone goal is 22 to 30 months. But it looks to me like 
recent applications, Vermont, Yankee and Pilgrim, are taking 
longer than 5 years. So what is the time line?
    Mr. Jaczko. In general, the 22 to 37 months--the 22 is for 
applications that do not have one of our formal hearings for 
license renewal; and in general, for those sites, we do really 
meet the 22. Where it has been more difficult is those sites 
that have a formal hearings attached to them; and that would be 
in particular the Pilgrim site, Vermont Yankee, Indian Point. 
We may potentially have some additional ones as well, a site, 
Diablo Canyon in California. Those are all in the more formal 
hearing process, and we have not done as well meeting our 
timelines there. But sometimes that is just the nature of the 
process. As issues arise, they need to be vetted appropriately 
through the hearing and get resolved.
    So for those outside the hearing, we generally meet the 
timelines. When they are in the hearing, we are, in some cases, 
taking a little bit longer. But, in the end, we have to do what 
we need to do to get the right safety answer.
    Mr. Nunnelee. So the ones where you have to have a hearing, 
what is the expected timeline?
    Mr. Jaczko. Well, you know, again, the expected timeline is 
about 3 years. So for some of them it is taking longer than 
that. But, as I said, in the end, the timeline gets established 
by the issues that are introduced that make it through our kind 
of acceptability review for the hearing. It depends not on the 
need to do additional technical analysis. It is just a variety 
of factors that could go into it.
    It is a little bit harder in that case to predict, but we 
do require the licensing boards that oversee these hearings to 
report periodically to the Commission. They have milestones. If 
they don't meet those milestones, they report to us. So the 
Commission itself can intervene, if necessary, to move a 
proceeding along.
    Mr. Nunnelee. Now, moving back to previous items of 
discussion, the SMRs. Just in general, how many applications do 
you anticipate receiving over the next couple of years, Dr. 
Lyons?
    Dr. Lyons. Well, our focus at the moment is on a licensing 
demonstration program. We intend to have the funding 
opportunity announcement issued this month. I can't tell you 
how many companies will apply for that. We have indicated an 
interest in funding up to two and taking this in a cost-shared 
way through design certification. But, of course, until the 
procurement is out, I can't tell you how many applications 
there will be. I would not be the least bit surprised if it is 
greater than five, but that is a guess. I don't know.
    Mr. Nunnelee. Does your budget request include adequate 
resources to allow you to process those two to as many as five?
    Dr. Lyons. It certainly provides adequate resources for us 
to evaluate the responses to the procurement and to move ahead 
with the cost-shared program. But, as I indicated earlier, we 
are looking at a nominally 5-year, $450 million program for up 
to two units--for up to two designs.
    Mr. Nunnelee. I understand you released draft guidelines in 
January. When do you expect the final guidelines?
    Dr. Lyons. Within this month. The goal is March 26th, sir. 
The comments were received on February 17th. We are analyzing 
those comments as we speak.
    Mr. Nunnelee. All right. What is the timeline on the two 
applications that you expect to receive?
    Dr. Lyons. We will allow 60 days for responses; and, after 
that, we will then take as long as it takes. Hopefully, we can 
do it in a few months. Our goal is to identify the top one or 
two candidates and proceed with awards this fiscal year. That 
is our target.
    Mr. Nunnelee. All right, let me just kind of wrap up my 
time period. Just give me your general view of these small 
modular reactors and their role in American energy production.
    Dr. Lyons. I think at this time small modular reactors will 
offer a new way in which utilities can consider the use of 
nuclear power. The very large units, the megawatt class, 
requires a large transmission grid and they are very--they are 
multibillion dollar investments. That is outside the range of 
at least some fraction of our utilities.
    We anticipate that there will be interest in the smaller 
units from smaller utilities, perhaps utilities that wish to 
start small and then add modules as their demand increases. As 
one goes in general smaller on a reactor, you can find very 
innovative ways of making them very passively safe; and we 
anticipate that there will be improvements in the passive 
safety, even above existing designs.
    So these will be some of the advantages, sir.
    Mr. Nunnelee. All right. Thank you.
    Thank you, Mr. Chairman.
    Mr. Womack. Mr. Pastor.
    Mr. Pastor. Could you explain to me why there has been such 
delay? I think it has been at least 2\1/2\ years in the works 
where this subcommittee initially funded the small modular 
reactors, and I understand maybe this summer you might even do 
the grant application?
    Dr. Lyons. Well, sir, unfortunately, we have been operating 
under Continuing Resolutions for quite a period of time.
    Mr. Pastor. Okay.
    Dr. Lyons. And the small modular reactors were considered 
new start. We are not allowed to initiate a new start unless 
there is a special exception made by the Appropriations 
Committees. That exception was not granted. So we had to wait 
until the fiscal year 2012 appropriation was passed just prior 
to Christmas. It was a wonderful Christmas present for me, sir.
    Mr. Pastor. Good. Merry Christmas.
    Dr. Lyons. That enabled us to start, and we began in 
January.
    Mr. Pastor. So then you expect that sometime this summer 
the request for application will be going out?
    Dr. Lyons. I expect sometime this summer that we can 
announce up to two winning proposals to move ahead into a 5-
year program, with a goal of design certification through the 
NRC. They will not be ready to file instantly with the NRC, but 
the exact timing when any one of them will file will be 
dependent on that particular company and where they stand in 
their design.
    Mr. Pastor. As you look to the design phase, what do you 
think would be--the ideal time it would take so that we could 
start the NRC process? You must anticipate a timeline.
    Dr. Lyons. Several of the companies have said they will be 
ready--have stated publicly that they will be ready to file 
with the NRC in late 2013. At least that is the date several 
companies have stated publicly.
    Mr. Pastor. So let me ask the chairman, late 2013, what 
plans have you made in terms of moving this along, since you 
have great support from the subcommittee and I guess overall 
great enthusiasm that this is somewhere we want to go?
    Mr. Jaczko. Well, I think we have been well-prepared. We 
have appreciated the appropriations we have gotten to prepare 
for these submittals.
    We have had a number of meetings with the potential 
applicants, and we believe right now that there are three--
basically, three companies that have expressed interest. I 
think that may change depending on what happens with Secretary 
Lyons' program.
    We are in good position. In fact, in our 2012 budget 
submittal we had anticipated receiving applications in fiscal 
year 2012. That, obviously, is not going to happen. So we are 
preparing. In part of our submittal in fiscal year 2013 we do 
have budget resources to review applications or to do pre-
application activities, depending on the stage of the 
applications.
    So I think we are in pretty good shape. We are identifying 
a number of policy issues that may need resolution in order to 
help facilitate those design reviews. We are working through 
those policy issues. And so I think right now, if anything, we 
are waiting on the applicants to be ready. But we are in pretty 
good shape.
    Mr. Pastor. Going back to the Hub, since the start of the 
Hub you have done the virtual nuclear reactor and you have 
gotten input from the industry, how have you accommodated 
things that have occurred like Japan and probably other nuclear 
reactors that have leaks or had problems? What do you do in 
taking those examples--or do you--and making sure that this 
virtual reactor is progressing forward and the best use for it 
is being done?
    Dr. Lyons. Well, the Hub does have established goals. As we 
get the reports to you, those will certainly spell out the 
goals and their progress towards them.
    Mr. Pastor. What do you think the timeline will be for the 
report?
    Dr. Lyons. I believe several reports have already been 
written, and we will make sure that you get them, sir. I think 
it can be done within a month, because I believe the reports 
exist.
    Mr. Pastor. Well, good.
    Dr. Lyons. But if you ask how the Hub was used for 
Fukushima, in general, that was not the focus that we have 
pushed.
    Mr. Pastor. No, the question is, what happened in Japan, 
have you been able to take what has happened to that reactor 
and do data in the Hub to say this is how we could improve it 
or this is what we need to do as we continue to work on the 
Hub?
    Dr. Lyons. Not through the Hub, sir, for some specific 
reasons. The reactor design in Japan is a different design 
substantially than the one being done through the Hub.
    However, our program, through an MOU with the NRC, we have 
agreed that we are working together to utilize the best 
capabilities within the national laboratory for severe accident 
modeling to model the accident at Fukushima, first from the 
standpoint of understanding if our severe accident management 
codes need improvement, but second from the standpoint of 
better understanding if there are lessons that in turn apply 
back to U.S. plants.
    And the appropriate division here--because we need to stay 
out of the regulatory area. We can work to improve the codes 
and work together with the NRC to ensure that the codes are 
well modeling Fukushima. But then how those codes might be used 
for a regulatory decision crosses this boundary, and that is 
the NRC's job.
    Mr. Pastor. Thank you.
    Mr. Womack. Thank you, Mr. Pastor.
    Mr. Simpson.
    Mr. Simpson. I am shocked, Secretary Lyons, that you would 
tell us that operating on a CR has implications for agencies 
out there. Something I have been trying to tell my colleagues 
for quite some time.
    I am very concerned about the proposed budget cuts to the 
advanced reactor program and for a number of reasons. One is a 
practical reason. The other one is, as you recall, last year, 
the Senate marked up a bill that had significantly cut these 
programs; and through some hard work of the staff here on this 
committee and others we convinced the Senate to come along with 
us. I am concerned that if we start at a number that is 
suggested in this, it will be much harder to negotiate with the 
Senate and get a number that is acceptable.
    Could you please share with me the value you see in 
completing the NPNG fuel development program?
    Dr. Lyons. There are some very important experiments 
underway in the NPNG world. The ongoing experiments involve 
fuel characterization experiments that are actually resident 
within the advanced test reactor in Idaho as we speak as well 
as experiments on better understanding the properties of 
graphite under irradiation, and those are also in the ATR.
    Those are certainly important experiments from the 
standpoint of understanding a type of fuel called TRISO fuel, 
which is an extremely robust type of fuel that might be of 
great interest in gas reactors. However, we are also at least 
wanting to explore the possibility that that type of fuel might 
have applicability well outside high-temperature, gas-cooled 
reactors. We want to look at it for other types of high-
temperature cooling systems. And we anticipate that that type 
of fuel will also be at least evaluated for--I mentioned 
enhanced-accident-tolerant fuels. We anticipate that the TRISO 
type fuel should be at least evaluated for that type of 
application. There are several technical reasons why that would 
be challenging, but it is not impossible, and the TRISO fuel is 
an extremely robust type of fuel, very, very high melting 
points.
    Mr. Simpson. Thank you.
    Chairman Jaczko, it may come as a shock and a surprise, I 
am not going to ask about Yucca Mountain.
    The V.C. Summer plant license application has been before 
the NRC since 2008. Ever going to make a decision? Ever going 
to bring it up for a vote?
    Mr. Jaczko. We are very close to that, yes.
    Mr. Simpson. It is very, very, very similar to the Vogtle 
plant design.
    Mr. Jaczko. The design itself is, at a generic level, the 
same design. It is an AP1000 design. There are some site-
specific issues that are a little bit different, but it is one 
that is very close to resolution.
    Mr. Simpson. Any idea when? I mean, are we waiting for a 
new commissioner or are we actually going to bring it up for a 
vote?
    Mr. Jaczko. Well, bring up for a vote is probably not an 
appropriate--that is not really the way we work. But it is very 
close----
    Mr. Simpson. I know.
    Mr. Jaczko. And, believe me, I would love to change that.
    It is very close. Generally, the first public statements, 
it would be about a week's formal notice, but I think we are 
very close. Beyond that I wouldn't say, but I don't think--it 
is certainly not months timeframe.
    Mr. Simpson. I have one more comment and maybe a question. 
The only thing the NRC has going for it is credibility. Under 
your leadership, that credibility has been diminished. What you 
are doing to try to address that issue? I noticed you mentioned 
that it is one of the 10 best places to work in the Federal 
Government, according to some poll or something like that.
    Mr. Jaczko. One of the two.
    Mr. Simpson. In spite of that, the relationship between you 
and the other commissioners has been damaging to the reputation 
of the NRC and, therefore, the credibility of the NRC. What are 
you going to do to try to address that? Because once you have 
lost that credibility, you are done.
    Mr. Jaczko. Well, I think as an agency, certainly we still 
have very good credibility. You know, I think if there was ever 
a time in which that credibility was tested, it has been after 
Fukushima; and I think there have been a number of difficult 
questions that we as an agency have had to answer.
    Mr. Chairman, Congressman Womack, as you asked--how do we 
answer the question of people who say our plant is still safe? 
I think we have been able to answer those questions, and answer 
them to the satisfaction of most people. We are not always 
going to make everyone happy.
    Mr. Simpson. But the only way that the public is going to 
believe that is if you maintain credibility. If they believe it 
is just a political organization and becoming more politicized 
all the time, then you damage that credibility. And it doesn't 
matter what you say, whether they are safe or not, because 
nobody is going to believe you.
    When I hear reports that you believe you are more concerned 
about safety than the other commissioners are concerned about 
safety when you vote differently on the Vogtle plant--and I am 
not criticizing that vote. I assume you voted the way you felt. 
But when we start to challenge commissioners about who is the 
most safety conscious, I think that damages the NRC.
    Mr. Jaczko. Well, I certainly appreciate those comments; 
and I will keep them in mind as I go forward.
    And, you know, I certainly have been very candid about my 
views on a lot of different issues. I never shied away from 
it--I think that is an important part of credibility.
    I actually think, to be honest, that the fact that there 
were disagreements over Vogtle is a positive sign for the 
agency, because it demonstrates to people in the public that we 
do talk about these issues. We do think about them. We do 
sometimes disagree and, in the end, we move forward.
    And I think that is the hallmark of what we are as an 
organization. We don't shy away from disagreements. We do not 
shy away from disputes. We don't shy away from making those 
public. And that, I think, is what people need to see in a 
safety regulator, and I think that is what they see at the NRC.
    I appreciate your comments, and they are things I will 
definitely keep in mind.
    Mr. Simpson. Thank you.
    Mr. Womack. Thank you, Mr. Simpson.
    Mr. Olver.
    Mr. Olver. Thank you, Mr. Chairman.
    I want to go back to the SMRs. I am wondering here a little 
bit about whether the two of you are allowed to talk to each 
other on these issues because of the regulatory difference. Is 
there a heart-to-brain barrier?
    Dr. Lyons. No, in fact, sir, there are many joint programs 
that are worked very successfully between the two 
organizations. And, frankly, since I spent 5 years sitting 
there----
    Mr. Olver. You are going to come back with a long answer. I 
just wanted to make that comment.
    You implied that you have a law which says the most 
demonstrations for designs under this RFP, you are still in the 
comment stage about it, I think--that the most you can do is 
two, up to two. You can do one or two, apparently. Is that 
correct? You are limited to doing two?
    Dr. Lyons. That is what we said in our budget submittal, 
sir.
    Mr. Olver. Isn't this off of last year's appropriation? The 
demonstration? The RFP?
    Dr. Lyons. The RFP will use fiscal year 2012 moneys, of 
which there is $67 million in fiscal year 2012.
    Mr. Olver. Right. Okay. So you already have the money.
    Dr. Lyons. Yes, sir.
    Mr. Olver. Okay. So does that limit you to no more than 
two? That $67 million?
    Dr. Lyons. In our budget discussions, in our so-called CJs, 
congressional justifications that come over here on the budget, 
we have used the phrase ``up to two,'' and we have also used 
the phrase I think it is $452 million over 5 years.
    Mr. Olver. That goes far beyond your putting out an RFP to 
get some designs so that you can go to a demonstration on SMRs.
    My next question was, you had mentioned that someone had 
come in earlier with a sort of a proposed design in the 200 
megawatt range. That you think that 300 is the upper limit. Do 
you have any limit on the wattage that they must fall within to 
be eligible under the proposed RFP?
    Dr. Lyons. 300 megawatts, sir.
    Mr. Olver. Upper limit, but is there a lower limit?
    Dr. Lyons. No, sir. But there are many other factors such 
as a business plan, such as showing how this will benefit U.S. 
manufacturing, the U.S. taxpayer. There are many criteria as 
part of this procurement.
    Mr. Olver. But there has to be an economy of scale sort of 
issue that, if you go even lower, somewhere along there it 
becomes ever more costly at the capital level to come up with a 
plan--for the amount of power that it is going to be able to 
provide.
    Dr. Lyons. Absolutely. And that is why their business plan 
is a key factor in determining who will eventually rise to the 
top of this competition.
    Mr. Olver. So they will come up with it, and you will judge 
whether their business plan has any capacity to be functional 
or not in the process?
    Dr. Lyons. Yes, sir.
    Mr. Olver. But you would want them to be somewhere--you 
don't want proposals for 5, 10, 20 megawatts, do you?
    Dr. Lyons. Well, if it is a simple module that can be 
replicated in large quantities, it is not ruled out, sir. The 
key will be how the business plan shows that it benefits the 
U.S. taxpayer and how executable the business plan is. As you 
point out, as you go down in power levels, it will become 
increasingly challenging to come up with that business plan.
    Mr. Olver. But you are still are trying to stay within--
when you are talking about manufacturing in a single 
manufacturing facility--we are talking about the reactor 
itself. There is going to be lots of construction at the site 
of other sorts, but if you are talking about the reactor and 
limiting size on that, that is likely to be--somewhere in the 
300-megawatt, you think that is probably the limit of single 
factory replication?
    Dr. Lyons. Of the designs that have been discussed 
publicly, the ones that I am thinking of at the moment, the 
smallest is 25 megawatts and the largest is, I believe, the 
Westinghouse, and I think it is around 210 or 220 megawatts. 
There is a 45. There is a 110. There is a range.
    Mr. Olver. Well, if you get 10 of such designs, do you have 
the money--if this is a demonstration and you had what you 
think are good business plans, wouldn't you want to have 
several demonstrations? You get maybe only one chance for this. 
Or do you have some money in for continuing demonstration in 
fiscal 2013.
    Dr. Lyons. Our program is a licensing demonstration to take 
it through design certification. It does not construct the 
unit.
    Mr. Olver. Okay. Such complications.
    I get the impression that you are trying to demystify the 
nuclear power processes in getting them spread out, rather than 
in huge places where you have two, three, four units that end 
up obviously being targets for public controversy.
    Dr. Lyons. I would say more that we are trying to offer 
additional options for utilities that could allow them to use 
nuclear power if that fits their overall interests.
    Of overriding importance to me is that I think this is an 
opportunity to restart a U.S. industry, and to me, one of the 
most exciting aspects of the SMRs is that they can be truly 
built in America, completely built in America and literally 
trucked or by rail to the site. And, hopefully, that will be 
sites not only in the U.S. Hopefully, there can be an export 
market. But first in the U.S. would be our hope. But I see it 
as a new way of enabling leadership in a key area of nuclear 
power and enabling a new U.S. industry.
    Mr. Olver. Fine. Thank you.
    Mr. Frelinghuysen [presiding]. Thank you, Mr. Olver.
    Mr. Womack, I want to thank you for chairing the committee 
in my absence. I apologize to the witnesses as well for my 
absence.
    Mr. Womack. My honor, Mr. Chairman. I feel like the pitcher 
that just got the hook, so I am happy with going back to the 
bullpen.
    I want to go back to TRISO for just a moment. My colleague 
from Idaho mentioned the next generation nuclear plant program, 
and you started talking about TRISO. I am a little fascinated 
with that fuel. So when could this TRISO be deployed in 
existing reactors? And what kind of barriers are there to that?
    Dr. Lyons. This is not anytime soon. If one were to use 
TRISO type fuel, at least our current thinking is you probably 
would have to go to higher enrichments that would lead to some 
significant regulatory questions. This fuel has not been--to 
the best of my knowledge has not been--that is not quite true. 
It has been in test reactors. It is certainly is not close to 
being in a commercial reactor.
    I don't want to overstate the potential for TRISO, sir. I 
was only emphasizing that as an exceedingly robust type of fuel 
it is and that it is at least one of the types of designs that 
we should evaluate for increased accident-tolerant fuels.
    Mr. Womack. Does the budget fully support the TRISO fuel 
activities?
    Dr. Lyons. That is certainly an area where--the whole NGNP 
program was an area which was part of our prioritization. 
Difficult decisions. As Mr. Simpson noted, that is down to 
about $20 million in fiscal year 2013.
    Mr. Womack. So I take that as a no.
    The Light Water Reactor Sustainability Program has focused 
on significant steps in accident tolerant fuel and other post-
Fukushima work. The advanced fuel program similarly plays a key 
role in the Department's Accident Tolerant Fuels Initiative. 
Can you describe the safety focused activities in these two 
programs? Any shifts in those activities in this year's 
request?
    Dr. Lyons. In the Light Water Reactor Sustainability 
Program there has been some effort in accident tolerant fuels. 
That is done jointly with our fuel cycle R&D program.
    In addition, the modeling and simulation that I mentioned 
in which we are testing our severe accident management codes in 
cooperation with the NRC, that is also being done through the 
Light Water Reactor Sustainability Program. Those would be a 
couple of examples.
    Mr. Womack. So, given the focus on fuel safety, then why 
does the budget request cut both of the programs?
    Dr. Lyons. I can only----
    Mr. Womack. Advanced fuels by nearly a third.
    Dr. Lyons. I can only repeat again that we are dealing with 
an austere budget, and we made difficult prioritization 
decisions.
    Mr. Womack. Are there any other major activities that you 
can focus on here in the limited time that I have left that 
focus on making these reactors safer?
    Dr. Lyons. There are a number of different areas that we 
have explored post-Fukushima in addition to the accident 
tolerant fuels. There has been a program, also joint, with the 
NRC and with EPRI to look at better seismic models. There has 
been increased emphasis within the university community on 
safety related issues. Those would at least be some of the 
examples that we are pursuing in this area.
    Mr. Womack. Okay. Mr. Chairman, I am going to yield back.
    Mr. Frelinghuysen. Thank you.
    Mr. Pastor.
    Mr. Pastor. When the administration decided to shut down 
Yucca Mountain, I believe that this subcommittee, knowing that 
there was great expertise and personnel and manpower, 
knowledge, that we appropriated money so that hopefully many of 
the people involved in that licensing process were kept. And I 
don't know, but there was going to be movement from the 
civilian radioactive waste management component to various 
offices in DOE just to maintain and keep some of that 
knowledge.
    Now, it is my understanding that sometime this summer, the 
D.C. District Court is going to make a decision on the 
appropriateness of shutting down Yucca Mountain. If the court 
decides that the administration did not have that authority and 
the licensing application needs to continue, Dr. Lyons, how 
soon would you start the process for the licensing of Yucca 
Mountain?
    Dr. Lyons. First, let me note that that court decision 
doesn't involve the Department of Energy. That involves the 
NRC. If the NRC were to restart, then presumably there would be 
requests for information coming into the Department of Energy 
and we would----
    Mr. Pastor. Okay. I will get back to you.
    And let me ask you. I know in the past we have had 
carryover funds. If the court decides to say that the licensing 
procedure should continue because of lack of authority to do 
it, how soon are you going to start the licensing procedure?
    Mr. Jaczko. Well, I am very reluctant to speculate on any 
decision the court might make. Of course, whatever decision the 
court issues we would evaluate and take whatever action we 
could. We have not received any appropriations in the last few 
years for Yucca Mountain.
    Mr. Pastor. But you had some carryover money.
    Mr. Jaczko. We had some carryover money. So, in any case, 
we would take whatever decision, and we would evaluate it. It 
is hard for me to speculate right now on what that would mean. 
Sometimes this can become a question of skill set and expertise 
rather than financial resources. So it is just hard to 
speculate right now.
    And I think, as I recall, I believe oral arguments are to 
take place I believe in May on that court decision. So it is 
unclear, of course, when a court might issue a decision. It may 
not be until the fall, or beyond that. So, it is just hard to 
speculate right now on where we would be at the time that a 
decision would come down.
    Mr. Pastor. If the circuit court says that you did have the 
authority to shut down Yucca Mountain--we have been collecting 
fees to fund the Nuclear Waste Fund. I think we have about $28 
billion in that fund, somewhere around that, more or less. If 
the court says that the administration did have the authority 
to shut down Yucca Mountain, how soon will you notify the 
people who are putting in this fund that the collection of 
these fees will no longer be needed?
    Mr. Jaczko. On that one, I would pass back to----
    Mr. Pastor. Good, they do talk to each other.
    Mr. Jaczko. We don't have the fees. They have the fees.
    Dr. Lyons. The Secretary of Energy is responsible for 
setting that fee and for reevaluating it on an annual basis.
    In the past, we have been asked frequently if the fee 
should continue in light of the current situation regarding 
Yucca. The very strong answer has been yes, because the 
administration and the Department continues its responsibility 
for used fuel management. That doesn't go away. And, for that 
reason, the view has been that, yes, the fees should continue.
    Mr. Pastor. But I thought that the initial fees to be 
collected, and were collected, were for Yucca Mountain.
    Dr. Lyons. No, sir. They are for management of used fuel.
    Mr. Pastor. Would you have some consideration to say that 
possibly now, because Yucca Mountain is shuttered and you have 
the authority to do it, that you would not collect the fee 
anymore? Is that a possibility?
    Dr. Lyons. Do we have the authority?
    Mr. Pastor. No, would that be a possibility that you would 
say, since--because the fees are----
    Dr. Lyons. That question has been evaluated many times 
within the Department over the last few years and the continued 
statement, which I have made testifying here and the Secretary 
has made many places, is that it remains necessary to continue 
to collect the fee because the Department maintains the 
responsibility for the management of used fuel.
    Mr. Pastor. How do you think the Department will eventually 
decide? I know that you have taken the blue ribbon 
recommendations. You now have a committee internally. I don't 
know how transparent it is going to be. So when do you propose 
or when do you think you are going to have some 
recommendations? How you are going to accomplish this 
responsibility?
    Dr. Lyons. In the fiscal year 2012 appropriations language 
we were asked to develop a strategy, and the request was that 
we provide it to Congress 6 months after the delivery of the 
report. So that at least our target, based on that, would be a 
July 26th discussion of a strategy.
    Mr. Pastor. Of this year?
    Dr. Lyons. Of this year. Yes, sir.
    Mr. Simpson. Will the gentleman yield?
    Mr. Pastor. Sure.
    Mr. Simpson. Let me ask you, if the fees are for the 
Department taking management of used fuel, and part of that is 
finding a permanent repository, et cetera, et cetera, all of 
that kind of stuff, and we are currently paying utilities to 
store fuel on site; right?
    Dr. Lyons. We are indirectly, sir. We are not paying 
utilities directly. Utilities file suit against the Department 
of Energy. I should say if they win--they certainly have been 
winning lately--those funds then come from the judgment fund.
    Mr. Simpson. From the judgment fund, not the Nuclear Waste 
Fund?
    Dr. Lyons. Yes, sir.
    Mr. Simpson. So we have collected money for the Department 
to take control of spent nuclear fuel, and we are effectively 
doing that by not doing it and having the utilities sue us so 
that we pay it out of the judgment fund.
    And I noticed that--I saw an article the other day about 
the amount of money that is being paid out of the judgment fund 
for various things. The Department of Energy was far and away 
the greatest amount being paid out of the judgment fund.
    But are we avoiding our responsibilities by not paying it 
out of the waste fund rather than out of the judgment fund? We 
are just shifting responsibility. Because we were supposed to 
take control of this stuff in '98?
    Dr. Lyons. That was the date in the Nuclear Waste Policy 
Act, which also very narrowly prescribes the utilization of the 
Nuclear Waste Fund. And at least the judgment has been that--
the judgments on these various suits--should be paid from the 
judgment fund. I am sorry. So, effectively, I think Congress 
would have to change language in the Nuclear Waste Policy Act 
in order to address that question.
    Mr. Simpson. And then we could have them take it out of the 
NRC because they failed to do the licensing.
    I am just kidding.
    Mr. Jaczko. As long as we receive appropriate 
appropriations for that.
    Dr. Lyons. This question has certainly been evaluated in 
the courts, and the decision was that we could not use the 
Nuclear Waste Fund.
    Mr. Frelinghuysen. You can reclaim your time, Mr. Pastor.
    Thank you, Mr. Simpson.
    Mr. Pastor. What is the probability that August 1st of this 
year you will have the report that you are required to give to 
the Congress?
    Dr. Lyons. Again, a congressional request was for July 
26th. That is our target, and we are working towards that date.
    Mr. Pastor. What is the probability that you are going to 
have it?
    Dr. Lyons. Sir, this will be a decision involving the 
Department and many agencies in the administration. I can't 
give you a probability, sir. It is our target. That is the best 
I can do. And there are certainly strong activities going on 
throughout the administration working towards that date.
    Mr. Pastor. I would hope that you go back to the Department 
and say that it would be very embarrassing if next year at this 
time we were asking the Department for the report that they 
committed to do August of 2012. And so I would appreciate that 
you encourage them to do it as quickly--well, to do it by the 
date, number one. And if they can't get it done, to please do 
it before March, 2013.
    I yield back, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Mr. Pastor.
    Mr. Nunnelee, thanks for your patience.
    Mr. Nunnelee. Thank you, Mr. Chairman.
    Chairman Jaczko, at the end of last year, all four of your 
fellow commissioners contacted the chief of staff of the 
President of the United States and said they believe your 
actions and behavior have caused serious damage to the 
institution and created a chilled work environment and that has 
compromised the Nuclear Regulatory's mission to protect the 
health and safety of the American people.
    When your job performance rises to the level that somebody 
contacts the President of the United States, that is pretty 
serious. I want to know what has changed since New Years in the 
internal workings of your organization to address this concern?
    Mr. Jaczko. Well, I have had a number of meetings with my 
colleagues and talked to them about these concerns. I have had 
a number of meetings with the staff to talk to them about 
anything that I may have done that somebody viewed as 
inappropriate or as creating a challenge. And so I have worked 
to address any misperceptions or miscommunications that have 
been made.
    I would note, though, that I think if you look at the 
performance of the agency, the performance of the agency 
continues to be at a very high level. It has been at a very 
high level since the time that I became chairman, and I think 
it continues to be at a very high level.
    And so I think there will always be disagreements among 
commissioners, and I think certainly I have heard some things 
from my colleagues areas that they had of concern, and so I 
have worked to improve communication in a way that addresses 
those.
    But I think, bottom line, the agency continues to be 
focused on its mission. The surveys we have conducted 
demonstrate that. As I talk to people in the hallways the sense 
I get from people is they are committed and dedicated to doing 
what we need to do for the American people.
    Mr. Nunnelee. So is the work environment any different in 
March of 2012 than it was in December, 2011, when these four 
commissioners contacted the President of the United States?
    Mr. Jaczko. Again, you know, that is probably a better 
question to ask the others. Every day I come to work I work to 
do the job with integrity and diligence, and that has not 
changed. I did that in December. I did that in November. I have 
done that throughout the time I have been chairman. So I 
haven't changed in that regard in my continued focus on doing 
my job and doing it as well as I can and every day to try to do 
it a little bit better than I did the day before.
    Mr. Nunnelee. Just this week, apparently, there has been a 
public disagreement as to whether we have made progress 
implementing the post-Fukushima reforms. Your comments in the 
Wall Street Journal says we are behind. Another commissioner 
says, no, we are ahead of schedule. When I get mixed messages 
like that, how am I, as a policymaker, supposed to address a 
very important issue of safety in nuclear power plants in the 
United States?
    Mr. Jaczko. Well, Congressman, I can't guarantee you 
unanimity on the Commission; and I think that is a false 
expectation. I think if anything I worry about, I worry about 
statements or questions like this that could be interpreted to 
mean that it is not okay for the commissioners to disagree; and 
I think that is a very important tenet of our Commission, that 
we are able to address publicly disagreements, different views. 
That is the nature and the reason that we have a Commission. So 
I do not consider that in any way, shape, or form to be a bad 
thing.
    What we do is we try and formulate positions. When we have 
firm Commission positions, I articulate those as the chief 
spokesperson for the agency. But in the process of developing 
those, there are disagreements. And I can't make everyone agree 
with me, nor do I want to. And I can't keep them from talking 
to the press, nor do I want to. So I don't consider that to be 
a bad thing at all, and I don't consider that to be reflective 
of a bad environment. I consider that to be reflective of a 
very good, positive environment.
    Mr. Nunnelee. I understand. I am a Member of the House of 
Representatives. I understand disagreement goes with the 
territory.
    I do think that bullying and intimidation, withholding 
information from Commission members is a bad thing. And I want 
to make sure that the Commission members and the staff people 
have the resources they need and are working in the environment 
they need to work in to make proper decisions.
    Mr. Jaczko. Well, I would just say, Congressman, I would 
think all of my colleagues, under oath, in Congress in a 
hearing back in December were asked the question of whether 
they had ever not had information they needed to make the 
decisions; and each one of them answered that they had had the 
information they needed.
    So I have never intended to withhold information from any 
member of the Commission. And as part of being chairman my job 
involves helping to manage the agency; and that invariably 
affects decisions of timing, of work flow, and sometimes that 
can affect timing of information and prioritization. That is 
part of the job.
    So I think part of this disagreement stems from just a lack 
of perhaps alignment among all of us on the Commission about 
what that means.
    Mr. Nunnelee. All right. Thank you.
    Mr. Frelinghuysen. Thank you.
    Apropos of Mr. Nunnelee's comments, you say that the agency 
is not on pace to meet its own timetable. There are four 
commissioners that say that we are or have some disagreement 
with you. That is the basic question. Are we or are we not?
    Mr. Jaczko. Well, the Commission, in adopting a number of 
the recommendations for the task force, set a target of 
completion of all activities for implementation within 5 years. 
Now, these are factual statements. The staff proposed to the 
Commission a number--kind of the first set of actions that we 
would take as an agency. Those actions recommend or suggest 
that the timelines for completion would be well beyond 5 years. 
So, given that factual information, without a change, we are 
not going to meet the 5-year target that the Commission 
established. Now, some commissioners may not feel that--some 
may feel that is okay----
    Mr. Frelinghuysen. What about the issue of evaluating 
recommendations on a case-by-case basis? You take a contrary 
position. Or what is your position?
    Mr. Jaczko. I am sorry? Evaluating----
    Mr. Frelinghuysen. The recommendations for upgrades.
    Mr. Jaczko. Uh-huh.
    Mr. Frelinghuysen. Are you taking a contrary position to 
your other commissioners?
    Mr. Jaczko. Well, the commissioners have, by and large, all 
agreed--well, the Commission, I should say, has adopted all the 
recommendations of the task force that we established, 
including a number of additional recommendations from one of 
our advisory committees. And there is only one recommendation 
from the task force that the Commission has deferred. So, in 
that case, I would probably disagree with my colleagues, 
because it was a recommendation that I supported moving forward 
on.
    So I am not sure--so, at the general level, the Commission 
is supportive of the recommendations of the task force. And 
that is a position that personally I agree with.
    Mr. Frelinghuysen. Do you support the whole notion of 
requiring a cost-benefit analysis of some of the changes 
recommended?
    Mr. Jaczko. I do not.
    Mr. Frelinghuysen. Tell us why.
    Mr. Jaczko. I believe, consistent with what the staff of 
the agency recommended, that these changes are necessary to 
prevent a Fukushima-type accident.
    Mr. Frelinghuysen. It is interesting--and we want to be 
respectful of you--that some of the people you serve with have 
pretty substantial credentials. They have been involved in this 
area and have a degree of expertise and knowledge. How there 
could be this--respectful of your position and your right to 
disagree, how could there be this enormous gap here? What is 
it?
    Mr. Jaczko. I can't explain it. As I said, the staff of the 
agency has recommended that we not consider these actions under 
cost-benefit analysis. The staff collectively has tremendous 
expertise, too, so I am comfortable with that staff 
recommendation, and it is something that I have supported. But 
it is a judgment call, and each commissioner can bring to it 
different----
    Mr. Frelinghuysen. The staff has come to somewhat of a 
unanimous view that supports your position? Or is there some 
divergence of opinion within? Maybe people--I wouldn't intimate 
that anybody would have to do your bidding, but, in reality, 
you and your fellow commissioners have this major 
responsibility. We would hope there would be some interchange.
    Mr. Jaczko. Absolutely. And the task force that we 
established recommended that these changes not be made with 
consideration of the cost. On subsequent reviews by the staff 
of the agency, the final judgment of the staff--and, again, I 
can't say that I polled every single member of the staff--the 
judgment of the staff was that they should not be subject to a 
cost-benefit analysis.
    So that is where the staff came out. I didn't influence 
that or tell them how it had to come out. That is what they 
came to as their judgment, as did the task force.
    Mr. Frelinghuysen. The industry is doing some things their 
own. What is your view of the efforts and investments they are 
making on their own behalf?
    Mr. Jaczko. I certainly encourage them----
    Mr. Frelinghuysen. And consumers and public good.
    Mr. Jaczko. The things they are doing are good. I think 
they are a piece of the work that needs to be done. They are 
certainly not all of the work that needs to be done. And I 
think the staff has conveyed that to the industry as well.
    So we certainly don't ever want to stand in the way of 
progress and of efforts to make safety better. There are more 
things that need to be done, though, than what the industry is 
proposing.
    Mr. Frelinghuysen. Of course. I take from the article, and 
you are welcome to back this up, that you are also of the 
opinion that our U.S. nuclear plants are safe.
    Mr. Jaczko. As I said to Mr. Womack, I would say, yes, that 
they are all safe. There is one plant, however, that is not 
operating. The Commission has said that--the staff has said 
that that plant cannot operate until they meet a number of 
conditions which we have yet to really work through and 
identify. So I wouldn't say they are unsafe, but they currently 
are not operating, and at this point the staff would not be of 
the opinion that they could operate.
    Otherwise, the plants are meeting our requirements, and 
some of them have challenges and need extra oversight, but 
otherwise they are safe.
    Mr. Frelinghuysen. Last year, I won't say I was a fly on 
the wall, but I sat in on one of Mr. Shimkus's hearings in the 
big room and had an opportunity--and we thought about doing it 
here, and we may do something at a later date--to hear the 
voices and opinions of some of those that you serve with. I 
thought it was valuable to me.
    I am somewhat disturbed that there is this apparent and 
perhaps real friction between you and some of the other 
commissioners. But we hope and know that you are working on 
behalf of the public good, and we will be respectful of it.
    Mr. Chairman, there are quite a few applications for new 
reactor licenses, and there are always the continuing issues of 
plant license extensions and power upgrades. Can you give us a 
picture as to what we should anticipate over the next several 
years? And, more importantly, since this is the Appropriations 
Committee, whether you have the funding levels in your budget 
to provide adequate staff to get these reviews done in an 
expeditious manner?
    Mr. Jaczko. Right now, I feel very comfortable with the 
request that we submitted that we will have the resources to 
meet the necessary, I would say, demands of the applicants.
    We have right now pending one license application which is 
near completion. That is for the Summer project.
    Beyond that, there is one other new reactor application 
license that is in a more advanced state of review which could 
possibly come to final decisions in the next year perhaps or 
potentially longer depending on how we review or deal with some 
of the Fukushima events.
    Beyond that, most of the license applications are a little 
bit farther out, maybe in fiscal year 2013, fiscal year 2014, 
and beyond for the license applications we have.
    So there will be a bit of a break, in a way a pause, 
because of really just where we are in the review for these. 
But, again, none of that is inconsistent with what the 
applicants are needing in terms of their time line for getting 
an application----
    Mr. Frelinghuysen. Are you gearing up for the SMRs at all? 
In other words, I know there are some basic similarities here, 
but I wondered whether we were beating the drum for this. I 
think it has been bipartisan. I think the administration is 
supportive of it. I am not quite sure where you are, but, in 
reality, I think there is a general consensus that this is 
something that we want to be identified with and will be 
thoroughly vetted. Is this part of your overall budget picture 
and projections as well?
    Mr. Jaczko. Absolutely. As I said earlier, we are really in 
a way waiting on the applicants right now. Our fiscal year 2012 
request assumed that we would be receiving applications for 
designs for small modular reactors in fiscal year 2012. That is 
not going to happen. Right now, as Commissioner--as Secretary 
Lyons said----
    Mr. Frelinghuysen. He has been called a lot of things. And 
we thank you both for your service; and Mr. Lyons has, of 
course, been around for a long time, has a remarkable career 
and institutional memory, so we count on him.
    Mr. Jaczko. As he said, we don't anticipate until late in 
calendar year 2013 receiving some of these applications for the 
small modular reactors. But we are preparing to receive those 
and are doing the work we need to do to be ready.
    Mr. Frelinghuysen. Mr. Pastor, anything else for the good 
of the order?
    Gentlemen, we want to thank you for your time here this 
morning. I apologize for my absence during the hearing. We 
appreciate what you do every day and want to thank your staffs.
    Since we have had a number of those representing the 
foreign media, again, we want to thank you and your staff for 
being heavily involved in supporting the Japanese people in 
their time of major crisis and anxiety; and the fact that your 
people were there to back them up and assist them I think is a 
mark that you ought to be very proud of.
    So we stand adjourned.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



</pre></body></html>
